<html>
<title> - VILLAGE ELECTIONS IN CHINA</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                       VILLAGE ELECTIONS IN CHINA
=======================================================================


                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 8, 2002

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov







                        U.S. GOVERNMENT PRINTING OFFICE
81-327                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MAX BAUCUS, Montana, Chairman        DOUG BEREUTER, Nebraska, Co-
CARL LEVIN, Michigan                 Chairman
DIANNE FEINSTEIN, California         JIM LEACH, Iowa
BYRON DORGAN, North Dakota           DAVID DREIER, California
EVAN BAYH, Indiana                   FRANK WOLF, Virginia
CHUCK HAGEL, Nebraska                JOE PITTS, Pennsylvania
BOB SMITH, New Hampshire             SANDER LEVIN, Michigan
SAM BROWNBACK, Kansas                MARCY KAPTUR, Ohio
TIM HUTCHINSON, Arkansas             SHERROD BROWN, Ohio
                                     JIM DAVIS, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                 GRANT ALDONAS, Department of Commerce
                D. CAMERON FINDLAY, Department of Labor
                   LORNE CRANER, Department of State
                    JAMES KELLY, Department of State

                        Ira Wolf, Staff Director

                   John Foarde, Deputy Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

Thurston, Anne F., associate professor of China Studies, School 
  of Advanced International Studies (SAIS), Johns Hopkins 
  University, Washington, DC.....................................     2
Liu, Yawei, associate director, the Carter Center's China Village 
  Elections Project, Atlanta, GA.................................     6
Dugan, Elizabeth, regional program director, Asia and the Middle 
  East, International Republican Institute (IRI), Washington, DC.     9

                                APPENDIX
                          Prepared Statements

Thurston, Anne F.................................................    34
Liu, Yawei.......................................................    37
Dugan, Elizabeth.................................................    40












                       VILLAGE ELECTIONS IN CHINA

                              ----------                              


                          MONDAY, JULY 8, 2002

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:30 
p.m., in room SD-215, Dirksen Senate Office Building, Ira Wolf, 
(Staff Director) presiding.
    Also present: John Foarde, Deputy Staff Director; Chris 
Billing, Director of Communications; Matt Tuchow, Office of 
Representative Levin; Jennifer Goedke, Office of Representative 
Kaptur; Amy Gadsden, U.S. Department of State; and Holly 
Vineyard, U.S. Department of Commerce.
    Mr. Wolf. Let me welcome everyone to the eighth issues 
roundtable of the Congressional-Executive Commission on China. 
These roundtables are being held because the Commission 
Chairman, Senator Baucus, and our Co-Chairman, Representative 
Bereuter, have instructed the staff to delve deeply into a 
number of very specific issues of concern to the Commission.
    This format provides an opportunity to focus on important 
issues dealing with human rights and the rule of law in China.
    We have two more roundtables scheduled during the summer--
on July 26, a roundtable on China's criminal justice system, 
and on August 5, an open forum where anyone--any group or any 
individual--can speak for 5 minutes about any issue of concern. 
Of course, anyone who wants to appear at the open forum needs 
to check our Website and register.
    Today we will address village elections in China--the 
background, how they have been carried out, information about 
technical assistance, advice, and monitoring from American 
groups who are represented here today, and the implications of 
village elections on human rights, the rule of law, and 
governance in China.
    Let me introduce the staff members here today. I am Ira 
Wolf, Staff Director. John Foarde is the Deputy Staff Director. 
Jennifer Goedke works for Congresswoman Marcy Kaptur. Holly 
Vineyard is from the Department of Commerce and works for our 
Commissioner, Under Secretary of Commerce Grant Aldonas.
    Chris Billing is our Communications Director and the 
Commission's expert on the media, the Olympics, and many other 
areas of concern to the Commission. Amy Gadsden works at the 
State Department for our Commissioner, Lorne Craner, the 
Assistant Secretary of State for Democracy, Human Rights, and 
Labor Affairs.
    Let us begin. We have three presentations today. First is 
Dr. Anne Thurston, who is associate professor of China Studies 
at SAIS, Johns Hopkins University.
    Second will be Mr. Liu Yawei, associate director of the 
China Village Elections Project at the Carter Center. And, 
finally, Elizabeth Dugan, the regional program director for 
Asia and the Middle East at the International Republican 
Institute [IRI].
    Anne, we will start with you.

  STATEMENT OF ANNE F. THURSTON, ASSOCIATE PROFESSOR OF CHINA 
STUDIES, SCHOOL OF ADVANCED INTERNATIONAL STUDIES (SAIS), JOHNS 
               HOPKINS UNIVERSITY, WASHINGTON, DC

    Ms. Thurston. I want to thank my friends and my colleagues 
here on the Congressional-Executive China Commission for the 
opportunity to share with you some of my experiences with 
village elections.
    I have been observing village elections in China since 1994 
and have both spoken and written about my observations. I 
brought one of the pieces I did in 1998 and have some copies 
for those of you who may want it.
    My two fellow panelists--friends, and colleagues, Elizabeth 
Dugan and Liu Yawei--both direct on-the-ground, concrete 
programs in China. My contribution today will be to provide 
some historical background about how village elections came 
into being in China, to give a broad overview about what we 
know about how successful those elections have been, and also 
to say something about how significant those elections have 
been, both for the people in rural areas who participate in 
them, and also for their implications for possible political 
evolution in China.
    Let me start by saying something about how these village 
elections came to be introduced into China.
    The process, as some of you know, traces to the demise of 
the people's communes or the collective system of agriculture 
in China, that began in the late 1970s and was completed by the 
early 1980s.
    One of the unintended consequences of this process of 
decollectivization is that many villages in China began to face 
serious problems of leadership. Those problems were generally 
of two types.
    In some villages, previous village leaders were able to 
take advantage of the new economic opportunities afforded by 
decollectivizations and they thus left their positions of 
leadership and searched for other, more lucrative pursuits.
    In villages of this type where the leaders actually left, 
many villages were faced with a vacuum of leadership. This 
vacuum, in some cases, also resulted in a breakdown of social 
order: the rise of banditry, of lawlessness, and the rise of 
violence, for instance.
    In other cases, some villages came under control of what 
the Chinese often call ``local emperors,''--strong men who are 
capable of exploiting and bullying, and generally making life 
miserable for the ordinary people under their control.
    By the mid- to late 1980s, many people thought that rural 
China was in a State of potential crisis. Above all, the 
Chinese Communist Party [CCP] was worried about the potential 
for instability and chaos in these rural areas.
    At the outset, there was considerable disagreement within 
the higher reaches of the Communist Party about what to do 
about this potential for chaos and instability. Some people 
naturally wanted a strengthening of Party leadership within the 
village. They wanted a sort of tightening of top-down controls.
    Others, though, began to suggest that perhaps the best way 
to restore order in Chinese villages was to institute village 
elections. What they reasoned is that by instituting popular 
elections, village leadership would fall to more popular, more 
respected members of the village community.
    Moreover, there was also the thought that if those people 
who were elected at the village level were not members of the 
Party, then perhaps they could be recruited into the Party, 
thus infusing the Party with--at local levels, in any case--a 
new respect.
    So the debate surrounding village elections as it played 
itself out was not really about the ``good of democracy'' as an 
ideal, but rather a very practical question about whether 
elections could, in fact, promote or would impede stability or 
chaos. The question was: What effect would village elections 
have on this potential for chaos?
    In the end, those people who argued that elections would 
promote stability won. In 1987, the Chinese National People's 
Congress passed an Organic Law on Village Elections, which 
promoted village elections on an experimental basis.
    The Ministry of Civil Affairs [MCA] in Beijing was 
responsible at the national level for overseeing implementation 
of these village elections and every province was responsible 
for coming up with its own concrete regulations governing how 
each province would carry out these experiments.
    By 1998, more than a decade later, these experiments had 
been going on long enough and with sufficient success that they 
were mandated finally into law. As of 1998, all villages in 
China have been required by law to hold competitive elections.
    At that time, in 1998, the guidelines for how to carry out 
village elections were also more clearly and thoroughly spelled 
out. Most of these measures, as we read them, move village 
elections further along the democratic spectrum.
    Candidates have to be chosen by the villagers themselves 
rather than by outsiders; secret ballots are required; and the 
number of candidates must exceed the number of positions to be 
chosen.
    One of the great frustrations of anybody working on this 
issue of village elections is that we simply do not know yet 
how widespread they are or how well and how universally they 
have actually been implemented.
    There are some 930,000 villages in China, and some 900 
million people live in those villages. But the number of 
villages visited by foreigners like those of us in this room is 
painfully limited.
    My own experience has also been very limited, but I have, 
nonetheless, seen a broad spectrum of types of village 
leadership in China, and also different ways of choosing 
village leaders.
    I want to mention the various types of leaders that I have 
seen in China, but dwell particularly on the more positive side 
of what I have seen.
    First, the local emperors who came to power with the 
collapse of communes still exist in some parts of China. There 
is little doubt about that.
    Second, many villages continue to exist in the same vacuum 
of leadership they found shortly after decollectivization. 
Third, I have also seen cases where these local emperors are 
actually elected, ostensibly democratically.
    Finally and most importantly, and what I want to talk about 
a bit here, is that I have also seen elections that, by any 
measure anywhere in the world, would be recognized as genuinely 
competitive, fair, and democratic.
    If I could generalize about some of the most successful 
elections I have seen, I would say, first--and pretty 
obviously, I suppose--that the issues confronting the 
electorate and addressed by the candidates are very local, 
practical, and economic.
    The rural voters behave in exactly the way that democratic 
theory says they should behave, which is to say they vote in 
their own self interests. They want very simple things. I 
mentioned some of those things in my longer statement.
    Most of the people who I have seen elected have been 
younger, entrepreneurial, better educated, and generally 
significantly richer than the older generation of collective 
leaders.
    Whether these newly elected village leaders are members of 
the Communist Party or not seems not to be an issue with the 
voters, although in my own experience--and I think probably in 
the experience of everybody else here who has witnessed village 
elections--most often the newly elected leaders are members of 
the Party, simply because Communist Party members have more 
connections at higher levels, and thus they have a greater 
ability to make things happen at the village level.
    We do not really know the percentage of village leaders 
being elected now who are members of the Party, but we know 
that figure is pretty high, probably as high as 80 percent 
nationwide.
    It is hard, given the limited number of elections that we 
have observed, to say why some elections are successful and 
some are not, although it seems to me that the key is generally 
in leadership.
    In order for elections to be successful, you really have to 
have significant political commitment at every step of the 
political ladder, from the top, which is to say the Ministry of 
Civil Affairs, to the province, to the township, right down the 
chain to the village.
    I would also say, and I think others who have observed 
village elections would agree, that elections are also very 
much a learning process. With good leadership, with experience, 
they do tend to get better over time.
    One of the most important things I have learned observing 
village elections over the years is that the technical details 
that we take for granted about how to organize an election are 
by no means obvious to the Chinese. Election officials have to 
be properly trained.
    Here, I would commend heartily the work of both the IRI and 
the Carter Center for what they have done in training election 
officials at several levels of the election hierarchy, and also 
in directly monitoring those elections, which gives them also 
an opportunity to make recommendations for improvement in how 
elections are carried out.
    So the question is, what difference did these elections at 
the village level make? I think, certainly, they are definitely 
a major advance over the previous ways of selecting village 
leaders in China. They present rural people with choices that 
they did not have before. They give them a real voice in the 
selection of their leaders. They provide a sense of political 
participation, of community, of empowerment.
    Moreover, there is some evidence--although I think we need 
a lot more research on this--that governance in villages that 
have had competitive elections does improve, that finances 
become more transparent, that corruption declines.
    Above all, though, it seems to me that by giving rural 
people the experience of electing their local leaders, 
elections at the village level are putting in place the 
mechanisms for elections of higher-level officials. That, of 
course, is the final question.
    The question is, can we expect elections at the village 
level to begin working their way up, which is to say, to the 
township, the county, the province, and eventually the national 
level? This is, of course, how Taiwan began its long-term 
process of democratization.
    There is pretty universal agreement both in China and among 
western academics that reforms that actually begin this upward 
movement from the village, to the township, to the county, to 
the province, and so on is going to have to be instituted from 
above, which is to say from China's top leadership.
    We all know that China's current leadership has been 
decidedly conflicted about the issue of further democratization 
there. We also know that China is currently in the process of a 
major leadership change, which also means that this is not the 
time for political innovation. That is to say, full-blown 
democracy is not likely to come soon to China.
    But, having said that, I think the note that I would like 
to close on is that I have been going to China for some 24 
years now, and never at any time since I have been going to 
China have I heard more sentiment in favor of democracy as I do 
now.
    Among China's intellectuals, in particular, I think there 
is a general understanding that democratization in the long 
term is both necessary and inevitable. The question is--and it 
is a very big question for everybody--how to proceed along a 
more democratic path without risking the chaos and instability 
that so many people in China fear.
    Many people in China, like people in the United States, 
believe that democratization is tied to China's continued 
economic development, and also to the spread of economic 
benefits from urban to rural China, and from the coastal to the 
inland areas.
    But to conclude, I will say that in the meantime, before 
this process actually gets under way, I think that the Chinese 
Government's continuing commitment to village elections offers 
us in the United States a rare opportunity to cooperate with 
China in a very positive way in their long-term, but still 
uncertain, political evolution. Thank you all.
    [The prepared statement of Ms. Thurston appears in the 
appendix.]
    Mr. Wolf. Thanks.
    Mr. Liu Yawei, please go ahead.

STATEMENT OF LIU YAWEI, ASSOCIATE DIRECTOR, THE CARTER CENTER'S 
          CHINA VILLAGE ELECTION PROJECT, ATLANTA, GA

    Mr. Liu. Thanks. Thank you for inviting me to speak about 
China village elections.
    I am going to skip the first part of my statement because 
Dr. Thurston has sufficiently covered it. The second issue I am 
going to talk about in some detail is the impact of China 
village elections, and third, a little bit about the Carter 
Center's activities in China.
    A general objective assessment of the consequences of the 
village community elections in China, what we call the enormous 
preliminary exercise of democracy, is as follows: That it has 
provided a safety valve to the hundreds of millions of Chinese 
peasants who are angry and confused as their life is often 
subject to constant exploitation and pressure.
    Second, it has introduced legal procedures of elections 
into a culture that has never entertained open and free 
elections. Third, it has cultivated a new value system, a much-
needed sense of political ownership among Chinese peasants that 
do not have any leverage in bargaining with a heavy-handed 
government.
    However, the popularity of these elections, the loss of 
influence and power on the part of officials at the township 
and town level, and the fear that these elections will 
eventually dislodge the embattled Party apparatus from the 
villages has triggered a backlash that is so ferocious, that it 
may render these elections into a hollow and meaningless 
practice.
    The assault seems to have come from two sectors: the 
political sector and the academic sector. While the motivation 
for the political attacks is easy to comprehend, the charges 
are lethal in the Chinese political discourse.
    There is, seemingly, a systematic effort to label village 
elections as a source of evil forces that are: (1) undermining 
the Party's leadership in the rural areas; (2) affecting rural 
stability; (3) turning the rural economy upside down; and, (4) 
helping clans and other old forms of power and control to grow 
in the countryside. These attacks came from the political 
sector.
    The scholars' criticism might be well-intentioned, but is 
equally detrimental. These scholars tend to argue that village 
elections are government-imposed, that they have unexpectedly 
destroyed traditional rural fabrics of self-government.
    What Chinese peasants really need are farmers' alliances 
and free disposal of their land. No country has ever seen any 
meaningful democracy taking hold from the bottom up.
    So, in this context, thousands of Chinese officials, 
particularly from the Ministry of Civil Affairs and the local 
Departments of Civil Affairs, are fighting very hard to keep 
this small opening of political reform alive. They are becoming 
a little pessimistic, but never, ever hopeless.
    As of now, all eyes are trained on the upcoming 16th Party 
Congress, whose endorsement of grassroots democracy will be 
another clarion call for bolder, and more expensive forms of 
popular choice and accountability.
    The second issue, is the impact of China's direct village 
elections. One could hardly exaggerate the impact of direct 
village elections. Yes, these elections are conducted only at 
the level of China's self-governing social and political units.
    Yes, the right to cast a ballot is only exercised by the 
supposedly most stubborn, conservative, and backward group of 
the Chinese people. Yes, the very powerful government can still 
render the popularly elected leaders powerless. However, it is 
going to be very hard to take away a right that has been 
granted to any particular group before.
    A Chinese scholar recently commented, ``True, Chinese 
peasants are not terribly enthusiastic about exercising their 
right to cast ballots nowadays. But, if one wants to take that 
right away, the situation will be rather explosive.''
    Furthermore, over the past 14 years direct village 
elections and villager self-government have become accepted as 
a valuable alternative to the otherwise arcane and opaque 
manner of selecting government leaders and people's deputies.
    In many places, the candidates for the Party positions are 
required to receive a direct popularity test. A low approval 
rating will disqualify the candidates for running for the Party 
positions.
    In 1998 and 1999, during the last round of township/town 
people's Congress deputy elections, new experiments of 
selecting township government leaders appeared in no less than 
three provinces, including an unprecedented direct election of 
a township magistrate in Buyun, Sichuan Province.
    Although these experiments were either declared 
unconstitutional or unsuitable to be implemented, they created 
a sense of hope and urgency. Many officials were preparing to 
introduce new procedures to expand the nomination process and 
make determination of formal candidates competitive and 
transparent. This anticipated boom of political experiments did 
not take place due to a Party circular in July 2001.
    Despite this, on the last day of December 2001, Buyun 
township went ahead again with its own direct election of a 
township magistrate. One province in China introduced public 
elections of magistrates in 45 percent of its 5,000 townships 
and towns by June 2002.
    More locales are going to use this so-called public 
election method to choose township leaders. It is said that one 
county in Sichuan Province used the same measure in picking a 
county magistrate.
    A scholar boldly predicted recently that one measure to be 
adopted by the Party's 16th Congress will be the direct 
election of Party leaders at the grassroots level. All these 
progresses are being made in the context of direct village 
elections.
    Finally, no matter how democratic China is going to become 
and what forms of electoral systems China is going to adopt, 
voter education, voter registration, nomination and 
determination of candidates, the use of secret ballot booths, 
are all going to be great problems and logistical nightmares 
that could lead to potential political violence and 
instability.
    The practice of direct village elections involves close to 
600 million out of the 900 million Chinese voters. They have 
always experienced these procedures and are getting more and 
more familiar with the standardized procedures. This will 
become the single most valuable asset in China's quest for 
greater democracy.
    Which way to go from here? No one has a definitive answer. 
The flurry of experiments of the selection of township 
magistrates in 1998 and 1999 were carried out under Jiang 
Zemin's call for promoting grassroots democracy at the 15th 
National Congress of the Chinese Communist Party in 1997. It is 
only logical to go down this road if the so-called ``three 
represents'' are implemented according to its true essence.
    If Jiang is determined to write the ``three represents'' 
into the Party charter and claim it to be his legacy, there is 
little doubt that China will back away from the small steps it 
has taken toward greater political reform.
    The last topic is the Carter Center's China Village 
Elections Project. The Carter Center initiated the China 
Village Elections Project in 1997. After a successful pilot 
phase, a 3-year agreement of cooperation was signed with the 
national Ministry of Civil Affairs in March 1999.
    This agreement allows the Carter Center to work primarily 
in four Chinese provinces to install computers and software to 
collect village elections data, to conduct training of election 
officials at all levels, and the elected village committee 
members in any province in China to observe village elections 
everywhere, to help conduct civic education, and to invite 
Chinese election officials to observe United States elections 
and the elections that are monitored by the Carter Center in 
other parts of the world.
    In addition to working with the Ministry of Civil Affairs, 
the Carter Center is also working with the National People's 
Congress, the Chinese Academy of Social Sciences, and other 
NGOs [non-governmental organizations] in the area of designing 
electoral procedures for the county and township people's 
Congress, for the township and county magistrates, in 
empowering the People's Congress system in China, and other 
areas of cooperation.
    The Center has provided substantial assistance in 
conducting civic education, printing civil education materials, 
and spreading information through the Website. We are about to 
launch another Website called ``China Elections and 
Governance'' in the near future.
    The Center has also been coordinating its work in China 
with other American and Western organizations, including IRI, 
the Ford Foundation, NDI [National Democratic Institute], UNDP 
[U.N. Development Program], and particularly the European 
Commission [EC].
    China is a significant nation whose international 
responsibility, domestic stability, and economic prosperity 
will directly impact the Asia-Pacific region and the world. All 
these things cannot be sustained without an open and 
transparent political system through which the government 
derives its legitimacy and the people hold their leaders 
accountable.
    No single group of nations can initiate this most important 
sea of change in China. China will have to do it by herself. 
However, the involvement of the Western government and the 
NGOs, in sowing the seeds of reform, sustaining the change, and 
consolidating the gains is indispensable.
    Imposing Western values on China without considering 
China's unique circumstances is counterproductive. Ignoring 
China altogether in its cautious and sometimes confusing quest 
for greater democratization is outright erroneous. Working 
outside China is helpful. Providing assistance inside China is 
safer and all the more effective.
    Thank you very much.
    [The prepared statement of Mr. Liu appears in the 
appendix.]
    Mr. Wolf. Thank you. Liz Dugan.

         STATEMENT OF ELIZABETH DUGAN, REGIONAL PROGRAM
 DIRECTOR, ASIA AND THE MIDDLE EAST, INTERNATIONAL REPUBLICAN 
                INSTITUTE [IRI], WASHINGTON, DC

    Ms. Dugan. Thank you. For me, it is an extreme honor to be 
invited to be invited to participate on this panel, and I thank 
you very much for that invitation.
    It is also a distinct privilege to serve with such well-
respected colleagues and experts in this field not only here in 
the United States, but most certainly on the ground in China.
    I have a prepared statement which is available, but I think 
if I can I will just speak a little more informally about some 
of the more important thought that I would like to make.
    IRI has been working on electoral reform issues in China 
for about 8 years now. We have been active in 10 provinces. We 
have observed more than 50 elections. These election 
observation missions that we conduct are really not as 
significant as some of the other activities that we have, but 
we try always to present those officials who are responsible 
for administering these elections with a set of recommendations 
that are meant to help them strengthen the process that they 
have already started.
    We have also been very much involved in training of 
election officials and of newly elected village chairmen to 
help them understand better about how they can be responsive in 
their new roles and how they need to be held accountable to the 
voters who put them in place.
    Another activity that we have tried to enact are regional 
networking conferences, which allow for cross-fertilization of 
ideas among provincial leaders who, again, have taken on this 
task and responsibility of creating electoral reform efforts.
    I mention, also, training and field work for domestic 
monitors. These, of course, would be the Chinese themselves who 
have some experience in the whole realm of elections throughout 
China and who now can go and observe and make their own 
recommendations. We have found this to be a particularly 
successful effort because it is Chinese to Chinese.
    I want to speak briefly about one particular village 
election experience which I think allows an institute like IRI 
to demonstrate a real sense of the progress that we have seen 
in China.
    Then, if you will indulge me, I will speak briefly about 
urban election experimentation that is taking place in China 
now and which I had a chance to observe firsthand in May.
    In Fujian Province, IRI had its first experience as an 
international observation team in 1994. We used Fujian Province 
as perhaps the best example of how we have been able to track 
progress over the course of time.
    As you know, village elections are on 3-year cycles, so we 
had a chance to observe, in two counties, these elections in 
1994, and then again in 1997 in the same counties.
    In 2000, we returned for the third time. This obviously is 
the best kind of indicator of progress and this is what we were 
able to note. The technical process has taken root.
    There still is room for improvement, there still is room 
for strengthening, but the very fundamental things have not 
only been rooted in Fujian Province, but they have been 
implemented in a very across-the-board way.
    It is useful for us to kind of see that it does not remain 
static. It is hard for us to know this in other provinces 
because we have not had, as I say, this consecutive election 
monitoring experience.
    While it is true that elections vary in their level of 
competitiveness, what we also saw in Fujian, and I have seen in 
other places as well, is that challengers are winning. Not 
always is the Party candidate being returned to his seat. 
Write-in candidates are allowed on ballots. These are all signs 
of some sense of real competitiveness there.
    It is clear to us that the demand for reform is great. 
There have been expressions of a desire to see direct elections 
at higher levels, at the township level, as Liu Yawei has 
mentioned. This has been voiced to us by not only villagers, 
but also by local officials.
    The pace of reform is not clear, and I think this is a 
sentiment that we all feel strongly. It is very hard to 
determine how quickly, or in fact how slowly, some of this may 
happen.
    Support for reform from Beijing is a wild card at this 
point. The outcome of the 16th Party Congress this fall is 
clearly a bit of an unknown variable for us. As Anne Thurston 
has suggested, this is not a time when a commitment to 
political reform or innovation is going to take place. It will 
not be for some time to come after the results of the Party 
Congress have had a chance to settle in.
    Let me speak, briefly, about these urban elections that I 
mentioned to you. For the past 2 years or more there have been 
12 pilot cities that have been allowed to experiment with 
elections for urban residence committees.
    In the history of the People's Republic of China [PRC], the 
primary organizing unit in most large Chinese cities was the 
work unit, or the danwei, which provided the cradle-to-grave 
social services known collectively as the ``iron rice bowl.''
    Although urban residence committees existed, positions on 
those committees were appointed by the municipal Party 
apparatus and held primarily by the elderly, many times barely 
literate people. Functions of these committees were limited to 
menial neighborhood tasks and snooping into the urban citizens' 
lives.
    China's cities have been undergoing massive social and 
economic change in recent years. With more and more state-owned 
enterprise failures and increasing unemployment, the danweis 
have become less important, in good part because they have 
become less effective in many cities.
    Simultaneously, the influx of migrant workers into urban 
areas has dramatically altered the urban landscape. Crime has 
increased, as have street protests and labor unrest. Residents 
committees, as they were formerly conceived and structured, no 
longer meet the needs of China's city dwellers.
    The Chinese Government decided to permit elections for 
urban residence committees on an experimental basis in the 
interest of modernization and social stability. This is the 
same rationale, as Anne so thoroughly pointed out, that was 
first used to permit village elections more than 10 years ago.
    It is worth noting, though, that in the absence of detailed 
central government directives on urban elections, local 
officials have a great deal of autonomy in designing and 
implementing them. There is a lot of variety.
    The hope, I believe, is that younger, more qualified 
individuals will run for positions on the committees and that 
elections will make these residence committees more accountable 
to urban citizens.
    The effort in Guangxi Autonomous Region, as elsewhere, is 
brand-new. The people who are driving the effort have not 
organized elections before. But this experiment also suggests 
to me hope and urgency of the same kind that Liu Yawei suggests 
in his remarks. These urban officials are using the village 
regulations as their model, and they are most certainly headed 
in the right direction.
    It is clear that there need to be new applications of that 
village model in the urban setting. In the interest of time, 
perhaps I will not discuss that at great length now, but would 
be delighted to address it during one of the questions. But let 
me say that whatever those applications may be, they will stem 
from nothing more than a learned competency and a technical 
understanding.
    So, let me try to make some summary points here before we 
move on. The first one takes a page right out of Anne 
Thurston's book, because she taught me so much about all of 
this and she was a really fine mentor--still is.
    Anne Thurston taught me that elections are not intuitive, 
and she has already made the point herself.
    They are learned skills. Training, therefore, is essential. 
IRI is beginning to learn also that, during this training, we 
need to focus not only on the how-to, but on the why.
    The majority of provincial officials that we have had the 
privilege to work with are very committed to trying to not just 
fill a box by complying with the 1998 law in village elections. 
They are dedicated to implementing sound practices and finding 
ways to strengthen what has always been put in place.
    Guangxi was a very good example. In Yunnan Province, we had 
a chance also to observe elections. Yunnan was the last 
province to initiate village elections, and they determined 
that they would spend as much time as they could learning from 
the mistakes of other provinces before they would put their own 
rules in place.
    I think that the Chinese have a luxury of some time that is 
not existing in other countries that are trying to put on 
elections. They have time to craft regulations that will limit 
the opportunities for manipulation and defrauding of the voting 
process. There is a long road ahead, there is no question about 
it.
    But the exercise of democracy is no small thing. It is hard 
to quantify the results, despite demands to do so. I know this 
is something that Liu Yawei also deals with on a consistent 
basis. There is anecdotal evidence that exists. But, in our 
minds, the genie is out of the bottle.
    This process that villagers, and now urban dwellers, and 
perhaps township dwellers also are beginning to experience, is 
one that brings to them an evolution of the habit of selecting 
your leaders and the habit of holding them accountable.
    I will leave it at that. I appreciate your kind attention.
    [The prepared statement of Ms. Dugan appears in the 
appendix.]
    Mr. Wolf. Thank you all very much.
    Let me start out. In earlier roundtables, some of the 
panelists spoke about their concerns with the low level of 
United States Government financing of NGO activities in China, 
especially assistance in the area of legal reform.
    They were worried that the legal standards and principles 
that the Chinese were learning were more European-focused than 
American. They saw that as something that was not particularly 
in our own national interest.
    They were asking for more American Government support for 
American NGOs and other U.S. organizations, such as U.S. law 
schools working in this area in China. I am wondering if there 
is any parallel with the work you are doing with village 
elections.
    Go ahead, Liz.
    Ms. Dugan. Thank you. If I understand you correctly, you 
are asking whether there is a perceived need or an actual need 
for U.S. Government funding.
    Mr. Wolf. At the national legal reform level, Americans 
involved in assisting believe that there is not enough American 
involvement, and therefore legal reform in some areas are going 
the road of non-American models, that is, European models or 
perhaps Australian, Canadian, Japanese, depending on where the 
money is coming from. I am wondering if there is any parallel 
to that at the village election level.
    Ms. Dugan. I will start off here, and then Yawei, you 
correct me if you think I am wrong. It is my inclination to say 
that American involvement in village election reform efforts 
with Chinese partners is probably the deepest of any other. We 
are not exclusively there, but more so than the European Union 
[EU], more so than Norwegians, Dane. I am trying to think of 
some other groups that I have run into along the way.
    We are very, very interested in trying to find ways to 
cooperate with those groups and make sure that we have 
coordinated our efforts so that whatever program we are putting 
in place is not a duplication of effort, or most certainly is 
not working at cross purposes. But I think it is safe to say 
that our efforts there are as broad as any other group's, if 
not broader.
    Mr. Liu. I agree with Liz, that the American organizations 
are working very closely with the Chinese Government. That 
includes IRI, the Ford Foundation, and the Carter Center.
    But in terms of the amount of funds available to these 
NGOs, and also a list of promised funds, the United States 
Government is not close to the European Commission. The EU is 
launching a huge project on rural governance and they are 
setting up 10 training centers around China to conduct training 
of elected village officials, as well as election officials at 
all levels.
    Although the EC is a big bureaucracy, it takes time for the 
two big bureaucracies to iron out all of the differences. It 
took them 4 years to finally hammer out the details of the 
cooperation, which is going to start in August.
    Ms. Thurston. I would echo what both Liz and Yawei have 
said. I mean, certainly the EU has a lot more money to spend in 
China. I think its problem has been, it also has a lot more 
bureaucracy to cope with. So, it has been very, very slow 
getting off the ground. Once it does, they do have the money 
and they do have the commitment to work with the Chinese.
    I want to say a couple of other things, though, about the 
way you phrased this question. You phrased it in the context of 
efforts at legal reform in China and the possibility that maybe 
what is happening is that the legal reforms may be more like 
Japan, or more like Europe.
    I think my sense is that what both IRI and the Carter 
Center are doing, and what we should be doing, is providing the 
Chinese with the tools to make their own decisions. The last 
thing that China wants is an ``American form of democracy.''
    I would also say that I think there is considerable 
skepticism in China in terms of working directly with the 
American government, and therefore what we need is more money 
going to NGOs like IRI, the Carter Center, and other NGOs as 
well to work outside the government, but on issues that the 
government would also support.
    Mr. Wolf. Thanks.
    Next is John Foarde.
    Mr. Foarde. This question is also for any or all of the 
panelists.
    I take it from what Anne and Yawei said that we have not 
really observed very many village elections of the many that we 
hope are going on out there.
    How much is the Ministry of Civil Affairs or the government 
generally receptive to additional observer groups from Carter 
Center, or anywhere in the United States, do you think?
    Mr. Liu. If I may, I think the MCA has no problem with 
receiving any Western or American delegations to observe 
elections. So far, I do not think any official American 
delegation has observed residence committee elections.
    There was one attempt by Congressional Members to observe 
it, but due to weather, the plane never landed. I think we 
asked some of the diplomats from the U.S. Embassy to observe 
elections in the past several years, but other than that, there 
is no official observation. The MCA is open to all foreign 
observation of the elections.
    Also, though the election cycle in China is every 3 years, 
there are no nationally restricted dates. So, just about every 
month, there are elections in China somewhere. So if you do go 
and contact MCA, they will make it possible for foreign 
observers to see these elections.
    Ms. Dugan. I concur with that remark. We have had nothing 
but fine support and coordination with the Ministry of Civil 
Affairs. I think they are very interested in being able to 
demonstrate that this exercise is going on.
    Mr. Foarde. So we would not be pushing the envelope to be 
able to come forward and say we would like to see more 
elsewhere in China, and we would like to possibly see some at 
the official level, that is, having officials from the United 
States observe them during an official visit?
    Ms. Dugan. I can think of no reason why they would decline.
    Ms. Thurston. I think the problem is usually a logistical 
one, where elections are taking place, when, and who from the 
Ministry is available.
    Mr. Foarde. The further away from Beijing, Shanghai, 
Guangzhou, the harder to get to, probably.
    Ms. Thurston. Yes. Although once you have made the contact, 
as IRI has, sometimes the easier it is to work with them.
    Ms. Dugan. Right.
    Mr. Foarde. Let me change subjects just slightly and ask 
any of you who want to respond if you have any sense of what 
the new generation of Chinese leaders that we expect to come 
forward over the next year or so feel about or think about the 
village election process, either anecdotally or by rumor, or 
anything they might have said in public. Any sense at all?
    Mr. Liu. Let me respond. I think the next generation, that 
is, the generation that is going to emerge at the 16th Party 
Congress, I do not think they have paid sufficient attention to 
the issues of rural elections or introducing these electoral 
measures to higher levels of the government, although they 
began to take them into consideration.
    I think we probably will not see any bolder or deeper 
reform measures being taken up until maybe the next generation 
in about 10 years. I think there is a growing critical mass in 
the middle level of the Chinese officials that this is 
something, as Anne said, is inevitable that has to be adopted.
    Mr. Foarde. But I take it that you agree with Anne when she 
says that the general consensus in China is that it has got to 
come from the top down and not be a bottom-up process. Is that 
right?
    Mr. Liu. No. I think the pressure will have to come from 
both sides. There is pressure from the bottom, such as social 
unrest, unemployment, a decrease in income for the peasants, 
the growing protest movement. These are the pressures from the 
bottom. Then it is going to push, and the top will have to 
respond.
    But the problem is in the middle, particularly at the lower 
middle level the township and county officials, that are most 
resistant to these kinds of elections.
    Mr. Foarde. I am out of time, and we have other colleagues 
who want to ask questions. So, let us keep going.
    Mr. Wolf. All right. Next is Jennifer Goedke with 
Representative Marcy Kaptur.
    Ms. Goedke. Thank you all for being here today.
    My first question would be for Anne or Yawei. You both 
spoke about motivating factors for the voters, including self 
interests like local infrastructure or pricing of household 
needs.
    Are there any motivating social concerns that you are 
seeing, anything like health care rights, workplace rights, 
political freedom, anything along those lines, or are you 
seeing that it is much more related to self interest of a local 
community?
    Ms. Thurston. Good question. I mean, it is actually a very 
interesting one, and one that I think we need to know more 
about. People in rural areas are not actually losing their 
health care now as people in urban areas are, as the danwei 
begins to fold.
    That is a major issue in Chinese cities, and it should be 
an issue in the countryside. But I have not seen an election 
where that is the case. That does not mean that it will not 
happen, cannot happen.
    Similarly, with political freedom there is, as Yawei I 
think has pointed out, a growing sense of rights, that the laws 
governing village elections are being made public, so people 
know that they have a legal basis for demanding that elections 
be carried out according to the law.
    In my own personal experience, it is quite a few steps 
further up the ladder to think in terms of one's own individual 
rights, human rights, civil rights, and that sort of thing.
    I tell a story in a larger piece that I wrote about trying 
to get a sense in villages of whether there is some sense, even 
if it is not called human rights, of something that is 
inalienable, that cannot be taken away from you, that is yours, 
that you absolutely need and deserve.
    When I have asked that question, the answer has always been 
the same: roads. That is, what people think is very practical. 
What they deserve, what they need, what is their right, is more 
roads.
    Mr. Liu. Yes. I think the issues during the elections are 
always economic treatment, but also about education, about road 
building. At the most recent village elections we observed, all 
five candidates talked about the WTO [World Trade 
Organization], to the surprise of all of the observers.
    This was in a remote village in the Shandong Province. So, 
they do not talk about political freedom.
    They very rarely talk about the Party. National politics 
are irrelevant here, so it is always issues that are very close 
to them.
    Ms. Goedke. For Elizabeth, we were talking about some of 
the mass emigration from the countryside into the urban areas. 
Are you seeing the influence of experience in village 
elections, people who are coming from the countryside into 
urban areas with this expectation for something, not 
necessarily widespread democratic elections, but something from 
their past experiences?
    Ms. Dugan. Sort of the importation of that experience. I 
have no evidence to suggest it, but ultimately it occurs to 
me--it is an interesting question--it may be too early to 
really have a sense of how that will work.
    But, again, it speaks to the habit of voting, the 
understanding that this is how we choose our leaders. To find 
themselves in an environment in which they no longer have 
control over that, it may supply some impetus for an 
acceleration of that upward movement.
    Ms. Goedke. Thank you.
    Mr. Wolf. Thanks.
    Holly Vineyard with the Commerce Department.
    Ms. Vineyard. Thank you.
    Several of you have mentioned the connection between 
village elections and economic prosperity. I was wondering if 
you could draw out that link a little more.
    Is one driving the other? I would be very interested in 
that, as well. I am very curious about the comment that the WTO 
has become an issue in local elections. Any additional comments 
you have on that would be welcome.
    Mr. Liu. In terms of the WTO, the village that we observed 
happened to have some vegetable gardens that exported 
vegetables to Japan and other countries. That is why it became 
an issue.
    In terms of whether the economy is driving the elections or 
the elections are driving the economy, I think Amy wrote an 
article a long time before about the impact of economic 
development. It is not very clear. I do not think there is 
sufficient data proving that one way or the other.
    In provinces like Guangdong where they are economically 
very developed, they were very late in adopting village 
committee elections. Once they adopted it, it went very far. 
Now the government, the Party, is coming down on the elections 
in Guangdong, so it is becoming more and more backward. So, the 
relationship is not very clear.
    But one thing that is clear, is that in areas that are 
economically well-developed, there are always funds available 
to conduct elections. This is becoming a growing issue, where 
the funds are going to come from to conduct these elections, 
particularly the township and county elections.
    In poorer areas, they do not even have the funds to conduct 
elections. In Fujian and Guangdong, there are always available 
funds to conduct these elections. It is a huge, costly business 
to run elections. The joke is, every time you have a round of 
elections you will be able to build several highways throughout 
China.
    Ms. Thurston. Can I add to that? I think the theory that 
says that political democratization goes hand in hand with 
economic prosperity also suggests that the standard of living, 
the annual yearly income, needs to be much, much higher than it 
is in China today before you really begin to see this 
correlation. I think that is probably one of the reasons we may 
not be seeing the correlation at the village level.
    But I would also say, in my own experience--and I think 
there is other research being done now by other academics in 
the China field--there may be some correlation between the 
nature of ownership in the village and the types of elections 
they have.
    I think one of the dangers, is that in some areas of China 
there is a concentration of ownership at the village level in a 
very few hands. That is also an opportunity for the sort of 
corruption of elections at the village level.
    I mentioned that I have seen elections where the local 
emperor gets elected, and that is often because he has access 
to a lot of resources that he can use then to work in the 
peasants' self-interests, which is more money, where they can 
actually distribute the profits from some of these collective 
enterprises to their own political benefit, and that is a 
danger.
    Ms. Dugan. I might just add, briefly, my experience in 
observing elections in the villages of China is that the kinds 
of issues that the candidates talk about, sometimes in a very 
articulate fashion, sometimes maybe not so sophisticatedly, but 
they tend to be the same kinds of things. The roads, of course. 
Always, the roads. Clean water supply. Schools.
    It occurs to me that it is so very similar to those very 
local elections that we know here in the United States, and 
that the issues are rooted in exactly the same things that 
people living in small towns here in the United States care 
about, too.
    Ms. Vineyard. Interesting. Thank you.
    Mr. Wolf. Thanks.
    Mr. Foarde. I will remark while we are talking about this, 
that this means that Tip O'Neill was not wrong when he said 
that, ``All politics is local,'' and the corollary to that was, 
``All local politics is public works.''
    Ms. Thurston. That is true. Roads.
    Mr. Wolf. Chris Billing.
    Mr. Billing. I was wondering if any of you have any good 
anecdotes that would help us get a sense of what it is like on 
the scene during these elections. What are the people saying? 
Are they all wearing tattered suits and coming in horse-drawn 
carriages, and that sort of thing? Maybe, Anne, you could 
start, but I would love to hear from all of you.
    Ms. Thurston. Oh, I love anecdotes. Well, actually, the 
visual setting of these elections looks different in different 
parts of the country. In some parts of the country, the village 
elections take place in a schoolyard. All of the villagers 
arrive long before the foreigners get there.
    You get there, and they are all lined up in their chairs 
that they have brought from home. You see a variety of 
clothing. The elderly people are generally wearing the 
tattered, old, blue uniforms that they have worn for probably 
centuries, and the younger people are dressed very brightly and 
colorfully. It also is a very festive sort of occasion. I love 
the visual impact of these elections.
    Again, it does look different in other places, because in 
some places there are literally polling stations. They are open 
from early in the morning until sometime in the afternoon, and 
people come one by one, or small group by small group over the 
course of the day to vote. That looks very different.
    The one anecdote that sticks in my mind, which is also an 
anecdote that suggests what tremendous power some of these 
higher-level units have--and I am not sure it is even 
appropriate to tell it here--but I think I was with IRI, and I 
think maybe Amy and Liz were there. I cannot quite remember. 
But we were at an election where the election was being held 
outdoors in a schoolyard.
    The word that the foreigners were coming to observe the 
election had gone out long before we got there. People from 
villages around wanted to come and observe the foreigners 
observing the elections, but there was a sort of perimeter 
beyond which the villagers from other villages could not enter. 
But, as the elections went on, and on, and on, these villagers 
from other villages got closer, and closer, and closer.
    And as they got too close, one of the upper-level officials 
just turned around and he went like that [gesturing] to these 
people who were coming closer and closer, and they all started 
moving away. That, to me, was a little bit frightening in terms 
of how much power these people still have just with the wave of 
their hand.
    Ms. Dugan. I would like to tell a story of when I had an 
opportunity to participate in some of the training that we do 
for newly elected village chairmen. There was an election I 
observed in Shanxi Province.
    Some 410 voters in this particular village participated in 
the election this day, and it was what they call a ``sea 
election.'' We would think of it as a primary, the first step 
in voters actually determining who the candidates will be that 
appear on the general election ballot. I had never seen one of 
these elections before.
    Now, the villagers all gathered in this election meeting 
schoolyard setting, as Anne described. And, theoretically 
speaking, each of the 410 villagers could have nominated 
themselves on the piece of paper they were given for the 
position of chairman, for example, and you would have 410 
different nominees that were put forth.
    But, of course, it does not really end up working that way, 
because there are natural leaders that emerge in a village and 
people know kind of who they would turn to to trust and to keep 
their confidence. So, the results came and 273 ballots were 
cast for candidate X, and 219 for candidate Y.
    We presume, of course, that one of these two is the 
currently seated chairman. In fact, no, the incumbent 
candidate, who also was the Party branch secretary in this 
particular village, had received 9 votes, which I think was a 
pretty clear message from the voters in that particular village 
on that particular day.
    I cut my friend Yawei off here from telling his own story, 
but maybe there will be another question of the same nature. At 
any rate, I would like to express that story of two village 
chairmen who have just come into their own new seat and need to 
understand that if they want to be reelected and serve the 
village on a more continuous basis, that the voters do have the 
power to send a very clear message.
    Mr. Wolf. We will give you a minute, Yawei, for an 
anecdote.
    Mr. Liu. All right. Thanks.
    A very quick one. This last election we observed in 
Shandong, where they talked about the WTO, the incumbent lost 
the election and the Party secretary was elected. So, Chuck 
Costello insisted on talking with the two candidates who lost 
the election and who won the election.
    The incumbent basically said, ``I was less capable.'' I 
think what he did not dare to say, is really the government 
supports the Party secretary to be elected. So, therefore, he 
was not even in the running for that position.
    But the winning person, the Party secretary, when asked why 
he was able to beat the other guy, said, ``Because I understand 
the marketplace better than the other guy.'' So, you see that 
economics are in play.
    A second anecdote which is very interesting, is when we did 
the training in Ningxia last year, the MCA sent observers which 
worked with IRI a lot. He went there and told them, your 
nomination process is totally screwed up. It is going to create 
problems.
    The township Party secretary said, ``You city dwellers, you 
do not know anything about what is going on over here. I 
promise, this election is going to be smooth. There are not 
going to be any problems.'' But, by the end of the day, no 
candidate won enough to be elected. The voters just exploded.
    One of the voters went up to the platform and grabbed the 
microphone and said, the whole process was fraudulent. They 
were almost on the verge of having a fist fight in a 
schoolyard, because they could easily get the chairs and start 
beating on each other.
    Interestingly, all the provincial officials disappeared 
from the scene. So, the MCA, the Party secretary, and the 
township had an emergency meeting and then declared, these are 
my cell numbers, fax numbers, home numbers: please report to me 
in the next 3 days what went wrong. That calmed the situation. 
This was last year in Ningxia.
    Mr. Wolf. Thanks. Amy Gadsden.
    Ms. Gadsden. I have a bunch of questions, and you can feel 
free to answer any of them.
    Liz, you mentioned in your anecdote, and one of the things 
you pointed out, was that governance is as important or more 
important than the elections themselves. I was wondering if any 
of the panelists would comment on the impact of elections on 
governance at the village level.
    The second question I have has to do with the relationship 
between the village committee and the Party committee. One of 
the things that the election process has done is revealed a lot 
of the problems between those two committees and the unclear 
delineations of power or authority between those two branches 
of government at the village level, and how some of those 
problems are coming to the surface now as elections have taken 
hold.
    A third, related question--again, feel free to answer any 
or all of these--is how have elections changed political 
discourse in China more generally, not necessarily with regard 
to villages and village governance, but in terms of how the 
Chinese themselves are looking at politics and political 
change.
    I think one of the things that we have done as foreigners 
observing elections is sort of filter it through a lens of, 
``what does this mean for political reform? ''
    Would you talk about whether the Chinese themselves filter 
their experience with elections through this same lens or 
whether they see elections as part of another phenomenon, or 
lack of phenomenon, for that matter?
    Ms. Thurston. Actually, I want to answer one of these 
questions. Of course, you could answer all these questions, 
too, Amy.
    I think that one of the things that we as NGOs do not 
really know, because most NGOs come in, observe elections, and 
do not usually stay afterward to see what happens.
    I think a next step, a next very important and certainly 
very interesting step, would be to return to villages where we 
have observed elections, and then see what happens to 
governance. We are working on a very nice presumption that 
somehow governance gets better with elections, but I do not 
think we know that for sure. I think it would be very nice to 
start trying to learn that. I think that there are academics 
now who are beginning to try to investigate that.
    Ms. Dugan. I will pick up on the bead and echo clearly what 
Anne says, that there is a lot that happens that we maybe guess 
at, we do not know empirically.
    Amy, you will remember that we actually did have a chance 
to go back and visit a village committee that had been elected 
in Heqing County in Yunnan, where we had actually observed the 
election and gone back and had a chance to speak with them.
    They were also new to that process. It was hard to get any 
real depth of either, yes, this is what we have learned and 
here is how we are taking it, applying it, and really we have 
made a lot of progress, or we do not have any idea what we are 
doing and we are really just foundering here.
    It was kind of a difficult interview, so it is hard to get 
this kind of data, no question about it. But I do think it is 
an important thing to try to get at. The training that we do 
for governance, we try to make it as broad-based and moving out 
to all the counties as we possibly can so that at least people 
have some rudimentary tools they can use.
    Mr. Liu. I will address the second question, which is the 
relationship between the Party branch and the village 
committee, which has a lot to do with governance.
    You could have perfect elections, but who has the power?
    Who controls the purse, is the ultimate issue in all 
villages.
    Now it is the growing contention and conflict between the 
popularly elected villager and the non-popularly elected Party 
secretary that are going against each other.
    It is this very issue that is pushing village committee 
elections to the verge of being reversed, because you have the 
Organic Law, which says the villager assembly has the ultimate 
power in making decisions, and then you have people working for 
the grassroots Party organizations which say that the Party 
branch controls all decisionmaking processes in China.
    So you have a national law against the Party's internal 
working measures. No one dares to say that the Party's working 
measures are less important than the national laws. This is an 
inherent problem that has to be dealt with down the road.
    In terms of political discourse, just one thing. I think 
there is a growing envy on the part of the urban dwellers, that 
our peasant brothers and sisters are directly electing their 
immediate leaders. What about us? We are being left behind. Are 
we going through another cycle of the countryside encircling 
the urban centers? So, they felt they were left behind.
    Mr. Wolf. Thanks. Matt Tuchow.
    Mr. Tuchow. The Congressional-Executive Commission on China 
is charged with developing an annual report, and in that 
report, making recommendations to Congress and to the President 
on how to go about promoting rule of law, including 
democratization in China. I am wondering if you have some 
recommendations for us on what those recommendations in the 
report should look like.
    Ms. Dugan. Is it for all of us?
    Mr. Tuchow. For all of you, yes.
    Ms. Dugan. Well, let me start here. The answer is, yes, 
please recommend that we are as fully funded as we can be. What 
I would love to have the opportunity to do, is to respond to 
you in a more comprehensive fashion after I have given it some 
very serious thought.
    What occurs to me, based on IRI's longstanding experience 
in China in trying to work with reformers there, is that the 
road left ahead is a long one and there are boulders in it, but 
there are many ways to maneuver around those boulders and there 
are many, many opportunities to not only accelerate the kind of 
program that we have begun and that Carter Center has been 
involved in, that NDI does, and the other NGOs, and Ford 
Foundation, not only accelerate it, but expand it. To be honest 
with you, the only thing that holds us back is the dollar 
signs.
    Ms. Thurston. I would certainly echo that. One thing I 
would say, and it is very trite to say, but there are 1.3 
billion people in China. There are 930,000 villages. There are 
900 million people in the Chinese countryside. What we are 
doing right now is a tiny, tiny drop in the bucket.
    It is a huge country with lots of people, lots of problems, 
and lots of opportunities for cooperation. Yes, it takes money. 
It would certainly take a lot more people here on the American 
side, too, to cooperate at a broader level. But the opportunity 
is certainly there.
    Mr. Liu. Yes. I think the report has to acknowledge that 
there are meaningful village committee elections in China and 
that these elections should be supported.
    Members of the Administration, Members of Congress, and 
their aides, each time they go to China, need to raise this 
issue. They need to say, we want to know more about these 
elections, just to raise the profile of this issue.
    Instead of criticizing that you do not have human rights, 
why do you not just go ahead and say, we heard you have 
elections. Could we talk a little bit more about these 
elections? Could we observe these elections?
    I think the Chinese saying is, ``It is easier for the 
foreign monks to burn incense.'' The Chinese officials can talk 
about this, but they will not get the necessary attention. But 
once a visiting American Congressman or Senator raises this 
issue, then this is an issue that the leadership is going to 
look at.
    In terms of funding, I have already said it. I think the 
Carter Center's experience is that we are extremely short-
funded. We have to beg United States and European corporations 
to give us funds.
    Most of these corporations say, what you are doing is very 
risky. We do not want to be portrayed as an organized company 
that is getting involved in providing funds for political 
activities. So, it is pretty hard for us, but we are determined 
that we are going to continue our work there.
    Mr. Tuchow. I think I speak on behalf of Ira and John in 
saying that if you do have further thoughts on recommendations, 
we would welcome them.
    Mr. Wolf. Absolutely. We would certainly appreciate any 
material you want to provide to supplement your presentation.
    Are women candidates emerging in village elections, or is 
this mainly a male activity?
    Ms. Dugan. Let me give you the good news. Invariably, we 
see women candidates emerge for perhaps one of the member 
positions. Usually there is a chairman, a vice chairman, and 
some number of members. It is not unusual to see women emerge 
as candidates for member, or sometimes vice chairman, not as 
often for chairman.
    But in these two urban election committees, the elections 
that I had a chance to view in May, in the first election the 
incumbent was a male challenged by a female. He won reelection.
    In the second election, two females. The older one won. 
They were both highly articulate. They were both very well 
experienced, very impressive presentations to the voter 
population who had assembled.
    It was very compelling to me to see that they were the two 
candidates that the resident representative assembly had put 
forth in this one particular urban community of some 2,000 
voters.
    Mr. Wolf. I know you have not observed hundreds of 
thousands of villages, but as an off-the-cuff estimate, are 99 
percent plus of the candidates males?
    Mr. Liu. That is correct. I think less than one percent of 
the village committee chairs are women. But in most cases, 
there is a woman member on the village committee. That woman is 
usually the chairman of the women's federation in that village. 
But in Shandong Province, what we saw is there are no women who 
came out to run.
    In Hunan, the provincial measure stipulated that the 
village committee will have to have one woman member, otherwise 
they will just keep voting until they get one elected. So, the 
provincial stipulations are different.
    In some places there are people saying, we have got to have 
one woman member. In other places, they just do not give any 
attention to this. But, overall, the women are drastically 
under-represented at the village committee level.
    Mr. Wolf. Can I get some examples of the most seriously 
fraudulent problems you have observed in the elections?
    Ms. Dugan. In my experience, fraud is not the issue. You do 
not see purposeful fraud committed, you see incompetencies, 
people who are the election workers, but they do not understand 
why a certain thing needs to happen or how it needs to happen. 
Again, let me go back to my experience in Guangxi with these 
urban elections.
    Mr. Wolf. I would rather stick to the village elections, 
please. If it is not fraud, do you observe cases of heavy-
handedness, corruption, fixed elections, pressure from the 
establishment--all the kinds of things that election observers 
are supposed to be observing? Did you see any of this or does 
none of this exist in the villages that you have observed?
    Mr. Liu. We have seen township officials onsite giving, 
sometimes, subtle or naked messages to the voters. For example, 
in 2000, in one place where we observed the election, the 
township minister was saying, to elect the Party secretary as 
the chair will actually save you money because you are 
combining the two positions together and it is going to reduce 
your burden. That is, of course, a veiled attempt to manipulate 
the voters' decisionmaking process.
    Others that we do not have opportunity to observe but we 
have read and heard of, are making empty promises during the 
campaign speeches or when they were making the tours inside of 
the village, such as, if I am elected I am going to help you 
reduce the fees you are going to pay to the government.
    But a growing number of people are talking about vote 
buying, that is, making actual cash payment, or taking people 
to dinner, and some other offerings such as packs of 
cigarettes, and those things. The MCA's approach to this is, if 
there is vote buying, that is an indication of competition. It 
is better than no competition.
    But the law itself is insufficient in terms of defining 
what can be characterized as vote buying, because there are no 
clear definitions as to what can be considered as vote buying.
    Mr. Wolf. Thanks. John.
    Mr. Foarde. I think sometimes we say the words ``observe 
elections'' or ``monitor elections,'' but do not really 
understand what we are talking about.
    Could you, for the record, give us a sense of what specific 
activities you do when you are out in the field as either 
monitors or observers, if there is any difference?
    Ms. Dugan. Certainly. When we first arrive at, usually, the 
county level--or let me start at the provincial capital. We 
meet with the provincial Bureau of Civil Affairs, who are 
involved with local governance issues, and usually have a 
relatively thorough briefing from them about the nature and 
history of elections in that particular province.
    At the county level, sometimes township, we have a chance 
for a more in-depth briefing about the particular elections 
that we will have a chance to see and what is happening in 
those particular villages, and some of the very raw data 
regarding them.
    We try to have as full an understanding before we actually 
go to the election site of what is the economic base, what 
issues are driving this particular election, what do the voters 
in this particular village care about, so you have got a kind 
of foundation to stand on.
    The process itself of observing the elections, as Anne has 
already started to describe, usually they are at a schoolyard. 
It is a meeting. It begins at 9 o'clock in the morning.
    There is a great sense of rite, of ceremony regarding these 
elections, a very ordered presentation of steps that are taken, 
with great ceremony in demonstrating that the ballot box is 
empty, and in the passing out of ballots, in the summoning of 
voters.
    Then, in a way that is unique and also helps to ensure that 
there is a transparency in the process, most of the time after 
the ballots have been cast the counting and the marking of 
ballots under each candidates' name is done in the same public 
area, and the voters remain and they watch that process.
    Then there is the announcement of the results, and what we 
might call ``peaceful transition of power'' so the new village 
committee is presented with their certificates then and there. 
That usually is the sum total of the observation process 
itself. Again, we are missing a step, and that is what happens 
next.
    Ms. Thurston. And also what happens before the primary, the 
selection of candidates, which we do see sometimes.
    Mr. Liu. Yes. One of the things we try to do is to find out 
exactly what happened before the election, the nomination 
process. We want to see the records. We want to see how many 
candidates were nominated by the villagers and how they were 
reduced to the official roster of candidates. So, that is one 
thing we try to find out.
    On the election day, of course, in all elections, foreign 
organizations get to observe. There is a certain level of pre-
election preparation for the Westerners to come. There will be 
officials visiting right before us to make sure that the 
setting is good, that the villagers are all going to come out.
    Occasionally there will be a cash payout to the voters, or 
at least a bottle of water, instant noodles, those kinds of 
things, to get them to come over.
    Two other things we observe on the election day will be the 
number of proxies, and also how the roving ballot boxes are 
used, particularly at elections at higher levels. The abuse of 
proxies and the use of the so-called roving ballot boxes are 
just intolerable. That reduces the quality of the elections.
    It basically makes the election a charade when you just 
allow one person to carry nine votes or more without checking 
the voter IDs or authorization. When you get a roving ballot 
box to households, there is no integrity to that voting process 
at all. So, these are the two issues we try to find out each 
time we go there.
    Ms. Thurston. This also sort of touches on--I did not get 
to respond to Ira's question--the issue of fraud. I think the 
fact is that the presence of foreign observers has a 
significant impact on how the election works and impact to the 
good. I mean, people are very, very careful and very attentive 
to make sure that all the rules are being followed as they are 
watching.
    Mr. Wolf. Holly.
    Ms. Vineyard. Thanks.
    How do you measure the effectiveness of what you are doing? 
Maybe this is related, but have you seen any signs, in the 
areas that do not have local elections might be clamoring to 
have them?
    Mr. Liu. By law, all of the villages--I think as of now the 
number is reduced to 730,000; a lot of the villages merged--all 
have to have elections. If there are no elections, that is 
illegal and the villagers can report it. Of course, there are 
areas where there were no elections being held because the 
local officials were opposed to it. But they have to have it. 
The MCA and the local Department of Civil Affairs can go down 
there.
    But the problem is that the law itself does not have any 
muscle. That is, if a village does not carry elections and this 
is a problem of the township officials, there is no way for the 
Ministry of Civil Affairs or the local Department of Civil 
Affairs to deal with it. In the law, there is no measure or 
penalty and the court will not take up any suits filed by the 
peasants.
    So now it is very clear to the MCA scholars that the law 
will have to be revised to make it useful and applicable, so 
when the violations do occur the perpetrators can be punished, 
as required by the law.
    Ms. Dugan. The first question you asked is the bane of my 
existence: how to measure whether what we are doing is making a 
difference, what kind of impact does it have, because it is 
very hard to come up with empirical data to support it. There 
is no profit and loss statement at the end of the month to let 
us know whether things are working. The anecdotal evidence is 
what propels us.
    To a certain degree, our experience in Fujian also was 
buoying, because recommendations that we had made from our 
first observation took root. They were put in force. We got to 
go back and see, 3 years later, that they took that seriously.
    They took it to heart and they made it part of the body of 
regulations that they use now in Fujian province. So things 
like that, perhaps, give you some sense of being able to 
measure the effectiveness of what it is we do, but it is a 
very, very difficult thing. I thank you for the question.
    Mr. Liu. I want to add to what Liz just said on the Fujian 
model. Before, elections in Fujian were always held in a 
schoolyard and people would have to come. But then the 
officials were invited by the IRI and other U.S. agencies to 
observe U.S. elections, and then they adopted the polling 
station method.
    That is, it will be open at 6 or 7 o'clock in the morning 
and it will close at 5 o'clock, which is being applied to all 
models. I mean, that is one thing they have learned through 
this interaction between U.S. involvement and the officials 
over there.
    Also, the unlimited access. The IRI, the Carter Center, the 
Ford Foundation being able to see the elections, to participate 
in internal discussions, the meetings, I think is another 
measurement of the success, and also the way they take our 
recommendations very seriously.
    In the revision of the law, they did take into 
consideration all the recommendations by the foreign observers. 
I think these are all, again, anecdotal reflections of the 
success that United States agencies have had in China.
    Ms. Thurston. Can I just add, you mentioned places that do 
not have elections. Yawei is saying that now, mandated by law, 
every village is supposed to have elections.
    I do not very often get the opportunity to go down to 
villages without somebody from the Ministry of Civil Affairs or 
a provincial level Ministry of Civil Affairs office taking me 
there, but I have on a number of occasions been able to be 
taken down to villages by Chinese friends.
    I have to say that in those few cases that I have had that 
opportunity, I have gone to villages that did not seem to have 
village elections. Sometimes there were just too many 
contradictions, it was too complicated, we could not do it, so 
the Party secretary is serving also as the head of the village 
committee.
    The other sense I have gotten, which I think that you do 
not get when you go down to look at village elections, is the 
strength of informal leadership at the village level.
    The people that we are seeing being elected are, as I have 
said, generally young, they are entrepreneurial, they are go-
getters. But I have been struck, in the villages I have been to 
with friends, of how much respect the older members of the 
village get.
    In two cases I am thinking of, both of those older people 
had also been head of the collective during the time that the 
village was a production brigade. So, there is a lot of 
informal leadership that takes place at the village level too 
that we really do not have the opportunity to see.
    Mr. Wolf. Thanks. Chris.
    Mr. Billing. One school of thought says that the Chinese 
Government allows these elections in order to give the peasants 
an opportunity to let off some steam and perhaps to avoid 
social unrest that way.
    Do you think there is a viable threat of that in the 
Chinese countryside, and are the elections successful in 
appeasing the peasants? Perhaps, Yawei, you could start.
    Mr. Liu. Yes. I think it certainly has played a role of 
releasing the peasants' anger and frustration to a certain 
extent, because you are sort of giving them an opportunity to 
vent their anger by either electing a new leader or recalling 
the leader that is incompetent or corrupt.
    But, again, I do not think this is going to solve all of 
the problems. The government does work very hard to prevent the 
farmers from forming any cross-border or cross-region 
organizations.
    One of the things I said that the scholars have been 
talking about, is that despite the nature of these elections, 
no matter how direct they are, the people who are elected are 
ultimately servants to the government because the township 
government is using them to serve the purpose of family 
planning, raising revenue, taxes, and all that.
    So what the scholars are suggesting is that we need to have 
farmers' alliances, making them truly independent, making them 
able to bargain with the government. This is something the 
village committee elections and the elected village committee 
members cannot accomplish.
    Ms. Thurston. I think that is a really good question. In 
terms of my own personal observation of the Chinese 
countryside, one of the things that distresses me right now is 
that there is a sort of disconnect between what we are hearing 
now about the increased level of violence and protest in the 
Chinese countryside and going down to observe village 
elections.
    I mean, you are not observing violence and protest in the 
countryside when you observe village elections. Since we do not 
have figures and numbers, it is very hard to know where the 
balance lies and how significant and important that protest may 
be. So, that is another plea for more research in the Chinese 
countryside.
    The one case that the Ministry of Civil Affairs used to use 
a number of years ago was the incidence of protests in Renshou 
County in Sichuan. The argument of people at the Ministry of 
Civil Affairs was that the people from Renshou County who had 
gotten together to protest had not participated in village 
elections and they were being taxed without their permission.
    But when they tried to go next door to the counties on 
their outskirts and solicit participation in their protests by 
people from those counties, they were refused because people in 
those counties had held village elections and they were voting 
their own taxes.
    So, this is a case that used to be used many years ago by 
the Ministry of Civil Affairs to suggest that participation in 
village elections would mediate against violence and protests.
    Mr. Wolf. Amy.
    Ms. Gadsden. No questions.
    Mr. Wolf. Matt.
    Mr. Tuchow. I wanted to come back to the ultimate question, 
which I think Anne Thurston raised in her remarks earlier. That 
is, how do you believe China should move to a more democratic 
and open society without creating uncontrollable chaos and 
unrest?
    Ms. Thurston. Well, that is a book. That is a big, huge 
question. I think the first answer is that we have been 
addressing here very specifically questions of village 
elections, but China has a tremendous set of problems, sort of 
grassroots level problems, that it has to face and it has to 
overcome in the next 5 to 10 years.
    I think that a lot of the protests, a lot of the unrest 
that we are seeing in China today is a result of the fact that 
the government has not been able to solve some of these 
problems, and the problems are problems of unemployment, or 
unemployment in the cities, surplus labor in the countryside, 
growing inequality between urban areas and rural areas, between 
the coast and inland areas, this transition that the country is 
going through in terms of going from state-owned enterprises 
into private and joint venture companies. But there are just a 
whole lot of very upsetting, destabilizing things taking place 
in China right now.
    I also have to say that, much as I would like China to move 
more quickly in a more democratic direction, the more time I 
spend there and the more time I see the extent of their 
problems, and again just the vastness of the number of people 
in that country, the more I think that China really does have 
to go very carefully, step by step.
    So my bottom line would still come back to, somehow you 
need this gradual merger or this gradual sort of coming 
together of the top and the bottom. Yawei mentioned that you 
cannot take this away from people at the grassroots level now, 
but you still, in the end, are going to need the cooperation, 
the initiative, and the leadership from the people at the top 
in order to begin moving these elections upward.
    But I think that that is what ultimately has to take place: 
You gradually do have to begin to move these upward to the 
township, to the county, to the province, and hopefully to the 
national level.
    Mr. Liu. I think this often raises the issue that if we go 
democratic, then the country is going to be turned upside down. 
It would be chaotic. It will be running amok. It is a myth that 
we all have to debunk.
    That is, if we are going to introduce universally accepted 
democratic measures, then China is going to go chaotic because 
our people are not very well educated, they do not know how to 
choose.
    I think that is a very elitist view from top down in China 
to a lot of the urban dwellers, saying the Chinese peasants are 
not very civilized. You give them 5 bucks, they are going to 
vote for any person you tell them to vote for.
    I think the MCA officials have a very clear view on this, 
that it does not matter how less well-educated these peasants 
are, they know where their interests are and they know how to 
cast a ballot. If they are given the opportunity to cast an 
unfettered and free ballot, they will be able to make their 
choice in a very wise way.
    Ms. Dugan. Yawei is 100 percent correct in that, that 
though they may not be highly educated, they know what is in 
their hearts, they know what it is that they want. This process 
that we have all had the privilege to observe is one that does 
not produce immediate results. As I mentioned before, it is not 
for the impatient. So, it will take a long time.
    I think Anne is correct. I think in some conversations that 
I have had with the Chinese you are left a very distinct 
impression that they are highly concerned about not following 
the Russia model, and to steer clear of that, of moving too 
fast in one specific direction. That is to say, as they move 
forward it will be incremental, it will be slow.
    Mr. Tuchow. Do the peasants see this as in any way related 
to Western democracy or the West, or do they just see this in 
the small confines of their village?
    Ms. Thurston. I think if you use the word ``democracy,'' 
they see that as related to the West and they see it related to 
the United States. For all of the sort of anti-American 
sentiment that you see or you hear about in China today, 
certainly there is also a lot of very pro-American sentiment as 
well, both in terms of our economy and in terms of our 
politics.
    I would, by the way, like to echo this. I have to say that 
some of the people in China who I admire the most are people 
down there in the countryside who have overcome difficulties 
the likes of which you and I could not even imagine. I mean, 
families starving to death.
    They are always one step ahead of what the government will 
allow. Despite the fact that they are not educated, they have 
just done remarkable things for themselves and their families. 
I think that they do not, by any means, get enough credit from 
people in China's urban areas who do tend to look down on them.
    Mr. Wolf. Thanks.
    Given the powerful role of the Chinese Communist Party, its 
political and economic strength, constitutional power, why 
would one expect that grassroots activities such as helping 
promote village elections, occupational safety and health 
training in individual factories, legal clinics in a few 
locations, or trying to teach women what their rights are under 
Chinese law, would have a measurable impact on the political 
dynamics and the political and social structure of the nation?
    Ms. Thurston. That is a good question. I would have to 
think about it. One answer, and I think I said it in at least 
part of my written piece, is that it seems to be that, in the 
long term, what these village elections are doing is putting in 
place the structure by which elections could be held at higher 
levels.
    I mean, so long as the process of expanding and improving 
upon village elections continues, when the time comes and you 
do begin to see them move upward, all of the technical details 
have sort of already been ironed out, the structure is in 
place. So, in that sense it is good preparation.
    Mr. Liu. I think all of these things, though they are 
minor, if you consider the population and how big China is, 
cumulatively, I think they have a huge impact on the future 
transformation of China.
    Another anecdote over here, is we invited the Ministry of 
Civil Affairs officials to observe the U.S. Presidential 
elections in 2000. In other circles, people were talking about 
it being a joke, but the officials that we invited were saying, 
we do not see it as a joke. We see the supremacy of the law. It 
is an election that comes out by the court.
    I mean, all these people, when they were in Atlanta, they 
were watching TV until 2 o'clock in the morning. They keep 
talking about how these issues are being resolved. That is, you 
have to obey the law. It does not matter whether you are 
president or vice president, it is not going to make a 
difference in the court. Everyone is equal.
    It is these visits, these trainings we do in China. We have 
trained 300, IRI probably trained more. These are the trainers. 
They go down, they train others. It is mushrooming. It is a 
chain reaction. I think, overall, the impact can never be 
exaggerated.
    Ms. Dugan. Well, I concur. It is a difficult question. But 
I think of it a little bit like squeezing toothpaste out of a 
tube, and there is no really easy way to put it back in once it 
is out there.
    To the extent that, again, there is just this engendering 
of empowerment that takes place and people get used to it, and 
they have a general understanding that this is their right, 
this is due them, to be able to select their own leaders and 
participate in this process, it is not without its own value.
    Mr. Wolf. Well, if, in the coming couple of weeks you think 
about this or could refer us to some people who have, in a 
fairly rigorous way, addressed this issue, please let us know.
    I think it is important that we on the staff be able to 
explain to our Commissioners who, rightfully, are looking at 
the use of Federal funds going into grassroots activities in 
China in the future with some skepticism, why this is money 
well spent.
    The question is, how to get a rigorous analysis of the 
impact of these programs on our broader goals?
    John.
    Mr. Foarde. No questions.
    Mr. Wolf. Holly.
    Ms. Vineyard. Following up on Ira's point there, I am 
wondering, would it be a useful exercise to have some of the 
Commissioners who sit on this Commission go to China to observe 
a local election? Would that be, do you think, helpful for them 
to understand the process or would it get in the way? Would it 
be helpful in having a brighter spotlight shining on the good 
works that you are doing?
    Ms. Dugan. I think it would be a very useful exercise for a 
number of reasons, not the least of which is, in my experience, 
people who do not spend time in China receive most of their 
information about what is happening in China straight through 
Beijing.
    The usefulness of being able to be out in the middle of 
nowhere in China to observe this process just brings you a 
little bit closer to real information. So, I would 
wholeheartedly support such an effort, and we would be 
delighted to try to help make the arrangements for it.
    Mr. Liu. I would echo Liz, that it would be extremely 
useful if there is time and opportunity for Commissioners to go 
to China to see the elections. I think it can be done.
    Also, when the Chinese officials come, either invited by 
the IRI or the Carter Center, I hope there will be meetings 
between the Commissioners and the MCA officials, or even 
between the officials and the aides over here.
    We are going to bring a group at the end of October, early 
November to see the mid-term elections over here. That would be 
a great opportunity for you guys to look at these officials who 
are trying so hard to implement this grassroots democracy.
    Ms. Thurston. I would obviously echo that. China, I think, 
in general is a country that really has to be seen and 
experienced in order for us even to begin to understand it. I 
think the same is true of village elections.
    I mean, my suspicion is that very few people can even 
conceive of what a Chinese village looks like or how it is 
organized, and very few of us in the United States could. I 
just think the importance of being there, observing, feeling, 
and seeing what it is like would be very important to anybody 
who is interested in this issue.
    Ms. Vineyard. Thank you.
    Mr. Wolf. Chris.
    Mr. Billing. Yawei, you mentioned Buyun in your testimony. 
What do we know now about what happened there, and what can we 
learn from Buyun County in Sichuan Province?
    Mr. Liu. In the Buyun case, of course, there was a direct 
election of a township magistrate in December 1998. Thereafter, 
it was declared as being unconstitutional. Then there was 
endorsement by a legal daily in China saying this is the 
Xiaogong Village of political reform. Xiaogong Village is the 
village in Anhui Province that divided the land among the 
peasants themselves in 1979 and started the household 
responsibility system.
    The last day of 2001, the Buyun township had another 
``direct election'' of a magistrate. This is despite the Party 
circular banning such activities. But they became a little bit 
more creative this time.
    Instead of having the voters directly electing the 
magistrate, they were asking the voters to nominate one 
candidate to be submitted to the township People's Congress. 
So, therefore, it is a quasi-direct election because the voters 
directly elect only one candidate to that position.
    This person who was elected last time got reelected, but 
with a very small margin. The challenger almost beat him, 
although he said he was going to win this hands-down. He was 
going to win 75 percent of the vote. Instead, he only won 51 
percent of the votes, a clear indication of competition and a 
clear indication that the voters thought he himself used his 
position to maximize his influence and tried to get the voters 
to cast his ballot. So, there is a reaction to his efforts.
    There probably will be more cases in China in the near 
future to model their elections after Buyun. We are still 
holding our breaths to see if that is going to spread.
    Mr. Tuchow. Is the central government actually trying to 
stop that from happening?
    Mr. Liu. There is no clear warning from the central 
government, other than the circular issued July 2001, saying 
that all indirect elections are going to be strictly in 
accordance with the Constitution and the organic law of local 
governments.
    So, basically they stopped it in the name of the law. But 
local officials are still challenging this, although in a very 
creative and original way, without jeopardizing their career.
    Mr. Wolf. Matt.
    Mr. Tuchow. I am wondering if you could just say a word or 
two more about urban elections, and particularly the unique 
challenges that they create. I imagine, if it is one work unit 
and not another, that may create some competition, animosity, 
or jealousy among one another. I am wondering if you have 
observed unique issues relating to urban elections.
    Ms. Dugan. Thank you for the opportunity. It is a very new 
thing and it is being done very differently in a lot of 
different places. In Liuzhou, where we had a chance to observe, 
one of the elections had many different work units represented 
in the voting constituency, in another one, only one.
    The interesting thing to my mind about these urban 
elections is that, though the voting populations are much 
larger, 2,000 in one of these cases, 4,000 in another, these 
are, as a general rule, much larger than you would find in a 
rural village election. But you are also dealing with a much 
more concentrated geographical area.
    As a result of these two variables, one thing that occurs 
to me--which is anathema to Chinese in our experience--is that 
campaigning, telling voters what it is that you intend to do 
for them and letting them understand how to make their choice 
on election day, becomes much more important. In a village of 
300 or 400 people, all right, I will give it to you, those 
villagers know who the candidates are. They know what they 
stand for. This is like just one big neighborhood.
    In these residence committees, or what they represent, you 
are talking about more people that are not going to know every 
candidate. It becomes impossible for a candidate to be known by 
that many people without taking the effort to reach them 
somehow. So, that becomes a very important element.
    I think that no longer does the sense of having an election 
meeting actually work in the villages for everybody to come and 
congregate, and there is a place for them to sit, there is 
enough room for them. You cannot do that with the urban areas. 
There is not a place large enough to hold the entire voting 
population.
    So, polling stations become another sort of important 
element that needs to be included as they begin to put down 
these regulations that will guide the fashion in which these 
elections are administered. Those are a couple of things I 
might offer.
    Mr. Tuchow. Have some of these urban elections taken place 
in the biggest cities, like Shanghai and Beijing?
    Ms. Dugan. They have, but not in the same way that they are 
being experimented with in places like Shenyang, which I speak 
about in my more formal presentation, and in Qingdao. Guangxi 
is the first province to really take it on as, we are going to 
do this province-wide. But I do not answer your question. I 
apologize.
    In Beijing, they do have, in a fashion, an election for 
these neighborhood committees, but it is not a direct election 
as we have come to know it. It is certainly not being mirrored 
in these exercises, this experimentation that is taking place.
    Would you agree, Yawei?
    Mr. Liu. Yes. The Ministry of Civil Affairs is also in 
charge of urban elections and they are about to revise the law, 
called the Organic Law of Urban Residence Committees.
    I think the officials in Beijing and officials in provinces 
are divided on what is going to be the focus of this law that 
is going to be revised, whether it is going to focus more on 
electoral procedures or it is going to focus more on service to 
be delivered to these urban residence committees.
    The voters are different, as Liz mentioned earlier. They 
all belong to a work unit, but at the same time, they have to 
return home. All their services used to be provided by the work 
unit, so they do not have this tie with this urban committee.
    So the officials, I think, argue very heatedly as to the 
core of this law that is going to be revised, whether the focus 
is going to be on elections or trying to organize these 
committees in such a way that services to women, to old people, 
to children, to the sanitation issues can be delivered as soon 
as possible and in a money-saving way.
    Ms. Thurston. May I add? I stopped by a year ago just sort 
of unannounced to a residence committee in Beijing and talked 
with a woman there, and she actually was a laid-off worker. She 
was in her early 40s. She had lost her job. She was then being 
trained by the City of Beijing in a sort of service capacity. 
After that, she expected to be elected to this position. So, it 
is an evolving thing, obviously.
    But at least my experience in Beijing was that there are a 
lot of new issues being faced by these neighborhoods and that 
some of these committees are being set up to serve people as 
they face some of their problems.
    Mr. Wolf. Well, we have had you here for 2 hours. We 
appreciate you giving us your time and your insights. I think 
all of us learned a lot. And it is useful for our Commissioners 
as they put together their annual report. So, thank you all.
    [Whereupon, at 4:32 p.m. the roundtable was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Anne F. Thurston

                              july 8, 2002
    I want to thank my friends and colleagues on the staff of the 
Congressional-Executive China Commission for the opportunity to be here 
today and to share with you some of my experiences with village 
elections in China.
    I have been observing village elections in China since 1994 and 
have both spoken and written about my observations over the years.\1\ 
Since my two fellow panelists and colleagues, Elizabeth Dugan and Liu 
Yawei, each direct active, on-the-ground programs related to village 
elections in China, I think my contribution to today's hearing can best 
be made by providing some historical background to how village 
elections came into being, by giving a very broad overview about what 
we know about how successful those elections have been, and by saying 
something about how significant these elections may be both to the 
rural people who participate in them and to the possible evolution of 
the Chinese political system. I should also point out that I have 
traveled to China with both the International Republican Institute and 
the Carter Center as part of their ongoing efforts to monitor and 
advise on the electoral process at the village level. I have the utmost 
respect for the work of both these organizations.
---------------------------------------------------------------------------
    \1\ See, for instance, Muddling Toward Democracy: Political Change 
in Grass Roots China (Washington, D.C.: U.S. Institute of Peace, 1998); 
and with Amy Epstein Gadsden, Village Elections in China: Progress, 
Problems, and Prospects (Washington, DC: International Republican 
Institute, 2000)
---------------------------------------------------------------------------
    Let me begin by saying something about how village elections came 
to be introduced in China. The process traces to the demise of the 
people's communes, the collective system of agriculture, that began in 
the late 1970s and was complete by the early 1980s. Most people who 
study rural China now probably agree that the dissolution of collective 
farming was the result of both top down and bottom up efforts. In the 
greatly liberalized political atmosphere that followed the death of Mao 
Zedong and the rise to power of Deng Xiaoping, it was Chinese farmers 
in areas that had suffered greatly from Maoist rule who first began 
disbanding their collective farms. In a matter of years, all of the 
Chinese countryside had followed their example.
    In the initial few years after collective farms had been disbanded, 
only the fruits of decollectivization seemed apparent. Agricultural 
production shot up. So, too, did the incomes of most of China's 
farmers.
    After a few years, however, some of the unintended and less 
beneficial consequences of decollectivization began to be evident. 
First, the earlier increases in agricultural production began to level 
off. Second, and more important from Beijing's perspective, villages 
began to face serious problems of leadership. Those problems were 
basically of two kinds. In some villages, previous village leaders were 
able to take advantage of the new economic opportunities afforded by 
decollectivization and left their positions of leadership for other, 
more lucrative pursuits. Villages were thus left with a vacuum of 
leadership. This vacuum in turn often resulted in a breakdown of social 
order--the rise of banditry and lawlessness, and an increase in 
violence, for instance. In other cases, villages came under control of 
what the Chinese often call local emperors--strong men capable of 
exploiting and bullying and generally making life miserable for 
ordinary people within their control.
    Both Chinese who were early advocates of village elections and 
Western scholars who have studied the period agree that by the mid-to 
late 1980s, rural China was in a State of potential crisis. Above all, 
the Chinese Communist Party was worried about the potential for 
instability and chaos in rural areas. Anyone who has studied China for 
any length of time soon learns how greatly both the Chinese leadership 
and the Chinese people fear chaos and thus how important stability is 
to virtually everyone in China.
    There was at the outset considerable disagreement within the 
Chinese leadership about how to counter this growing instability. Some 
people naturally wanted a strengthening of party leadership within the 
village and a tightening of top down controls. These people, aside from 
being fundamentally anti-democratic, were afraid that without tightened 
party controls, enforcing such not-very-popular policies as family 
planning and grain procurement might be impossible to implement. 
Others, however, including some of China's senior revolutionary leaders 
who were generally considered quite conservative, suggested that the 
best way to restore order was to institute village elections. The 
faction who favored elections seemed genuinely afraid that without the 
institution of elections, China's peasants might revolt. By instituting 
popular elections, they reasoned, village leadership would at least 
fall to more popular and respected members of the village community. 
Moreover, if those elected were not party members, perhaps they could 
be recruited to the party, thus infusing the party at the local levels 
with a new respect.
    Thus, the debate surrounding the issue was not about the ``good'' 
of democracy as an ideal but rather whether elections would promote or 
impede chaos. In the end, those who argued that elections would promote 
stability won the first round. In 1987, the National People's Congress 
passed the Organic Law on Village Elections which promoted village 
elections on an experimental basis. Elections were not mandatory under 
the new law. They were simply encouraged. Nor were the instructions and 
regulations as to implementation very well spelled out. The Ministry of 
Civil Affairs in Beijing was responsible for overseeing overall 
implementation, but it could only provide guidance and direction. Each 
province was responsible for coming up with its own concrete 
regulations.
    Implementation of these guidelines was, not surprisingly, stalled 
after June 4, 1989, when the army moved into Beijing to quash the 
peaceful protests that had been going on for weeks. But efforts to 
implement village elections were revived in the early 1990s. By 1998, 
these experiments had been going on long enough and with sufficient 
success that they were mandated into law. Since 1998, all villages in 
China have been required by law to hold competitive elections. At that 
time, the guidelines for village elections were also more thoroughly 
spelled out. Most of these measures move village elections further 
along the democratic spectrum. Candidates must be chosen by the 
villagers themselves--not, for instance, by either the party or higher 
level township officials. Secret ballots are required. And the number 
of candidates must exceed the number of positions to be chosen. On the 
other hand, the leading role of the party has also been firmly 
reasserted.
    One of the great frustrations of anyone trying to make sense of 
these village elections is that we simply do not know how widespread 
they are--how well and how universally they have actually been 
implemented. Nor, it must be pointed out, do we have any real idea how 
widespread the protests and occasional violence that we still hear 
about in the Chinese countryside is. There are some 930,000 villages in 
China. Some 900 million people live in them. The number of villages 
visited by foreigners is painfully limited. I hesitate to hazard a 
guess, but surely the number could not be more than several hundred.
    My own experience has also been limited. I have nonetheless seen a 
broad spectrum of types of village leadership and ways of selecting 
village leaders:
    First, the local emperors who came to power with the collapse of 
the communes still exist in some places. Usually they are able to exert 
control because they are also very rich, are in control of much of a 
village's resources, and are able to influence higher levels in the 
government and party hierarchies.
    Second, many villages continue to exist in a vacuum of leadership. 
When, for instance, I have had the opportunity to visit Chinese 
villages with friends rather than through official sponsorship, it 
seems I invariably happen upon villages which are suffering crises of 
leadership, villages where elections, if they have been held at all are 
only pro forma, and the village leader is generally weak and 
ineffectual.
    Third, I have seen cases, too, where the local emperors are 
actually elected, ostensibly democratically. These are instances, for 
instance, where the second candidate seems to have been put there only 
for the sake of complying with election regulations and where the 
village chief who is running for re-election also controls a major 
portion of the village resources, some of the profits of which he may 
distribute to villagers, perhaps because he is magnanimous but also as 
a way of insuring his re-election.
    Finally, and most important, I have also seen elections that by any 
measure anywhere in the world would be recognized as genuinely 
competitive, fair, and democratic. I should also say that I have seen 
such elections while accompanying both the IRI and the Carter Center.
    If I could generalize about the most successful elections I have 
seen, I would say first, that the issues confronting the electorate and 
addressed by the candidates were (not surprisingly) local, practical, 
and economic. The voters behaved they way democratic theory says they 
should have behaved: they voted in their own self interest. They wanted 
very simple things. They wanted stones placed under their dirt roads so 
they could still be navigated in the rain. Better yet, they wanted a 
paved road that could take them quickly to market. They wanted cheaper 
prices for plastic sheeting so they could build greenhouses to grow 
crops in the winter. They wanted better ties with the county seat so 
they could get more licenses to market their produce there. They wanted 
better schools and educational opportunities for their children. They 
wanted fewer taxes and fees. And they wanted their leaders to be people 
who could make those things happen.
    Most of the people I have seen being elected have been younger, 
entrepreneurial, better educated, and richer than the older generation 
of collective leaders. Whether these new leaders were members of the 
communist party or not seemed not to be an issue with the voters, 
though most often in my experience the new leaders were members of the 
party--simply because communist party members generally have more 
connections with higher levels and thus more ability to make things 
happen at the village level. We do not really know what percentage of 
village chiefs are also party members, but the figure is high--perhaps 
as high as 80 percent nationwide, though in some places it is lower--
only 60 percent, I have been told. Remember that the party is also 
using village elections as a tool for recruiting popular new members.
    It is hard to say why some elections are successful and others not. 
The key, from my own experience, is leadership. In order for elections 
to be successful, you need commitment at every step of the political 
ladder, from the top, which is the Ministry of Civil Affairs, to the 
province, to the township, to the village, right down the political 
chain. I would also say that elections are a learning process. With 
good leadership and experience, they get better over time.
    One of the most important things I have learned observing village 
elections over the years is that the technical details of how to 
organize an election are by no means intuitively obvious. Election 
officials have to be properly trained. The details of election 
procedures must be taught, supervised and learned. Here I would again 
commend both the IRI and the Carter Center for the work they have done 
both training officials at several levels of the election hierarchy and 
in directly monitoring elections, which gives them an opportunity to 
make recommendations for improvement.
    What difference do these elections make? Certainly they are a major 
advance over higher-level appointments of village leaders, election by 
acclamation and non-competitive elections. They present rural people 
with choices they did not have before, give them a voice in the 
selection of their leaders, and provide a sense of political 
participation, community, and empowerment. Moreover, there is some 
evidence, though we certainly need more research, that governance in 
such villages has improved, finances have become more transparent, and 
corruption has declined. Above all, by giving rural people the 
experience of electing their local leaders, elections at the village 
level are putting in place the mechanisms for elections of higher level 
officials.
    And that is the final question. Can we expect elections at the 
village level to begin working their way up--to the township, the 
county, the province, and eventually the national level? This is how 
Taiwan began its long-term process of democratization, starting with 
the grass roots, at the village level, and working gradually upward. 
This, of course, is also the hope of many reformers in China and 
certainly the hope of champions of Chinese democracy in the United 
States and other parts of the world.
    But there is nearly universal agreement, both in China and among 
Western academics, that reforms of this type will have to be instituted 
from above, from China's top leadership. China's current leadership has 
been decidedly conflicted about the issue of democratization. Jiang 
Zemin on the one hand has called for socialist democracy with Chinese 
characteristics and on the other warned against the possibility of 
chaos were China to introduce Western-style parliamentary democracy.\2\ 
And as we all know, China is currently in the process of a major 
leadership change, and there is increasing nervousness in China as the 
time for those changes to begin approaches. In recent days, we have 
begun hearing about Jiang Zemin's growing reluctance to give up some of 
his posts. This is not a time for political innovation in China--nor 
can we expect much political reform in the early months and possible 
years after the leadership transition is in place. Full-blown democracy 
is not likely to come soon to China.
---------------------------------------------------------------------------
    \2\ Compare, for instance, the following two statements: Without 
democracy there can be no modernization. We will ensure that our people 
hold democratic elections, make policy decisions democratically, carry 
out democratic management and supervision, and enjoy extensive rights 
and freedoms under the law. The overall goal of our political 
restructuring is to build socialist democracy with Chinese 
characteristics while upholding and improving our basic political 
system. (Jiang Zemin, October 30, 1997); and Should China apply the 
parliamentary democracy of the Western world, the only result will be 
that 1.2 billion Chinese people will not have enough food to eat. The 
result will be great chaos, and should that happen, it will not be 
conducive to world peace and stability.( Jiang Zemin, August 8, 2000)
---------------------------------------------------------------------------
    Having said that, I nonetheless hear more sentiment in favor of 
democracy in China today than ever in the 24 years I have been visiting 
there. Among China's intellectuals in particular, there is a general 
understanding that democratization in the long term is both necessary 
and inevitable. The question is--and it is a very big question--how to 
proceed along a more democratic path without risking the chaos and 
instability that everyone in China fears. No one seems to have an 
answer to that question, but many believe that democratization is tied 
to China's continued economic development and to the spread of economic 
benefits from urban to rural China and from the coast to inland areas. 
In the meantime, however, the Chinese government's continuing 
commitment to village elections offers us in the United States a rare 
opportunity to cooperate with China in a very positive way in their 
long-term, albeit uncertain, political evolution.

    <bullet> Anne F. Thurston is an associate professor of China 
studies at the Johns Hopkins University's School of Advanced 
International Studies and has spent more than six years in China. She 
is the author of several books, including Enemies of the People, The 
Private Life of Chairman Mao (with Li Zhisui); and Muddling toward 
Democracy: Political Change in Grass Roots China.
                                 ______
                                 

                    Prepared Statement of Yawei Liu

                              july 8, 2002
    Thank you for inviting me to speak about China's village elections 
and The Carter Center's efforts to provide advice and assistance in 
improving the quality of these elections since 1997. In my statement I 
will briefly talk about three issues:

          1. The current status of China's villager committee 
        elections;
          2. The impact of direct village elections on other forms of 
        elections in China; and
          3. The Carter Center's growing involvement in China's slow 
        but firm quest for greater choice and accountability.
           the status of china's villager committee elections
    Following the collapse of the people's commune, the Chinese 
countryside slid into anarchy, instability and chaos. The peasants 
first began experimenting with various forms of self-government in the 
early 1980s. These creative initiatives were soon seized by the central 
government in order to maintain social stability and raise revenue. 
After tenacious battle led by a few reform-minded political leaders, 
the self-governing procedures were written into a law that could only 
be passed by China's National People's Congress on a provisional basis 
in 1987.
    It took another decade before the Organic Law on the Villager 
Committees were implemented in earnest and finally revised in 1998 to 
include universally recognized procedures that guarantee electoral 
openness, fairness and competitiveness. For the first time, all 
administrative villages in China, totaling about 730,000, have to 
conduct direct elections every 3 years. For the first time, local Party 
committees cannot openly intervene in the nomination phase. For the 
first time, more and more elected village chairs begin to challenge the 
Party's control in the villages. For the first time, more villagers 
complain to the officials at higher levels of government about 
violations of the Organic Law than anything else.
    The relatively objective official and academic verdict of this 
enormous preliminary exercise of democracy is as follows:

          1. It has provided a safety valve to the hundreds of millions 
        of Chinese peasants who are angry and confused as their life is 
        often subject to constant exploitation and pressure;
          2. It has introduced legal procedures of elections into a 
        culture that has never entertained open and free elections; and
          3. It has cultivated a new value system, a much-needed sense 
        of political ownership and rights awareness among the Chinese 
        peasants that do not have any leverage in bargaining with the 
        heavy-handed government.

    The popularity of these elections, the penetration of the rights 
awareness among the peasants and the urban dwellers, the loss of 
influence and power on the part of the officials at the township/town 
level, the fear that these elections will eventually dislodge the 
embattled Party apparatus from the villages have triggered a backlash 
that is so severe and ferocious that it may render these elections into 
a hollow and meaningless practice.
    The assault seems to have come from two sectors, political and 
academic. While the motivation for the political attacks is easy to 
apprehend, the charges are lethal in the Chinese political discourse. 
There is systematic and almost conspiratorial effort to label village 
elections as a source of evil forces that is (1) undermining the 
Party's leadership in the rural areas, (2) affecting rural stability, 
(3) turning the rural economy upside down, and (4) helping clan and 
other old forms of power and control to grow in the countryside.
    The scholars' criticism might be well intentioned but equally 
detrimental. They tend to argue that village elections are government 
imposed, that they have unexpectedly destroyed traditional rural 
fabrics of self-government, that what Chinese peasants really need are 
farmers' alliances and free disposal of their land, and that no country 
has ever seen any meaningful democracy taking roots from the bottom up.
    Thousands of Chinese officials are still fighting very hard to keep 
this small opening of political reform alive. They are becoming a bit 
pessimistic but never hopeless. After all, in the current climate of 
the rule of law in China, it takes the National People's Congress to 
repeal the Organic Law in order to abolish these elections. As of now, 
all eyes are trained on the upcoming 16th Party Congress whose 
endorsement of grassroots democracy will be another clarion all for 
bolder and more expansive forms of popular choice.
             the impact of china's direct village elections
    One could hardly exaggerate the impact of direct village elections. 
Yes, these elections are conducted only at the self-governing social 
and political units. Yes, the right to cast ballot to directly choose 
their immediate leaders is only exercised by the most stubborn, 
conservative and backward group of the people in China. Yes, the much 
powerful government can still render the popularly elected leaders 
powerless and turn them into governmental servants.
    However, it is going to be very hard to take away a right that has 
been denied to any particular group before. A Chinese scholar recently 
commented, ``True, Chinese peasants are not terribly enthusiastic about 
exercising their right to cast ballot nowadays. But, if one wants to 
take that right away, the situation will be rather explosive.
    Furthermore, over the past 14 years, direct village elections and 
villager self-government have been gradually accepted as a valuable 
alternative to the otherwise arcane and opaque manners of selecting 
government leaders and people's deputies. For example, in many 
villages, the candidates for the Party branch positions are required to 
receive a direct popularity test. A low approval voting will disqualify 
the candidates from running for the Party positions. Many provinces 
have adopted this so-called two-ballot system.
    In 1998 and 1999, during the last round of township/town people's 
Congress deputy elections, new experiments of selecting township 
government leaders appeared in no less than three provinces, including 
an unprecedented direct election of a township magistrate in Buyun, 
Sichuan Province. Although these experiments were either declared 
unconstitutional or unsuitable to be implemented, they created a sense 
of hope and urgency. Many officials were preparing to introduce new 
procedures to expand the nomination process and make determination of 
formal candidates competitive and transparent.
    The anticipated boom of political experiments did not take place 
due to a Party circular which declared,

          ``In the past, a few areas proposed to experiment with the 
        direct election of township/town magistrates and in a few 
        isolated places there were direct elections of township/town 
        magistrates by all the voters. This violates the relevant 
        articles of the Constitution and the Organic Law of Local 
        Governments. During this round of election of township/town 
        level people's Congress deputies, the election of township/town 
        magistrates must be conducted strictly in accordance with the 
        stipulation of the Constitution and other laws.''

    Despite this, on the last day of December 2001, Buyun went ahead 
again with its own ``direct'' election of a township magistrate. One 
province in China introduced public elections of magistrates in 45 
percent of its 5,000 some townships/towns by June 2002. More locales 
are going to use this so-called public election method to choose 
township/town leaders. It is said that one county in Sichuan used the 
same measure in picking a county magistrate. A scholar boldly predicted 
recently that one measure to be adopted by the Party's 16th Congress 
would be the direct election of Party leaders at the grassroots level. 
All these progresses are being made in the context of direct village 
elections.
    Finally, no matter how democratic China is going to become and what 
forms of electoral system China is going to adopt, voter education, 
voter registration, nomination and determination of candidates, the use 
of secret ballot booths, the application of the proxies and roving 
ballot boxes are all going to be great problems and logistic nightmares 
that could lead to potential political violence and instability. But 
the practice of direct village elections involves close to 600 million 
out of the 900 million Chinese voters. They have already experienced 
these procedures and are getting more and more familiar with the 
standardized procedures. This is indeed a democracy seminar promised by 
Peng Zhen, China's leading advocate of direct village democracy. This 
will become the single most valuable asset in China's quest for 
democracy.
    Which way to go from here? No one has a definitive answer. The 
flurry of experiments of the selection of township/town magistrates in 
1998 and 1999 were carried out under Jiang Zemin's call for promoting 
grassroots democracy at the 15th National Congress of the Chinese 
Communist Party. The following is what he said,

          ``The most expansive practice of socialist democracy lies in 
        increasing the basic-level democracy and guaranteeing the 
        people's rights to engage in direct democracy, to manage their 
        own affairs according to the rule of the law and to pursue 
        their happiness. All basic-level governments and popular 
        organizations of self-governance in the cities and the 
        countryside should perfect the democratic electoral system, 
        practice political and fiscal transparency, allow the broad 
        masses to debate and determine matters of public concern and 
        interests and conduct democratic supervision of government 
        officials.''

    It is only logic to go down this road if the so-called ``three 
represents'' are implemented according to its true essence. If Jiang is 
determined to write the ``three represents'' into the Party's Charter, 
there is little doubt that China will back away from the small steps it 
has taken toward greater political reform. Nonetheless, any expansion 
of direct democracy is going to be extremely difficult since it will 
deprives the power and influence of those who are using the current 
cadre selection system to augment their own selfish pursuit.
          the carter center's china village elections project
    The Carter Center initiated the China Village Elections project in 
1997 during President Carter's visit to China in 1997. After a 
successful pilot phase, a 3-year agreement of cooperation was signed 
with the national Ministry of Civil Affairs in March 1999. This 
agreement allows the Center to work primarily in four Chinese provinces 
to install computers and software to collect village election data, to 
conduct training of election officials and elected villager committee 
members in any province in China, to observe village elections 
everywhere, to help conduct civic education, and to invite Chinese 
election officials to observe US elections and elections that are 
monitored by The Carter Center in other parts of the world. In 
September 2001, President Carter observed a village election in 
Zhouzhuang, Jiangsu and opened an international conference on village 
elections in Beijing attended by over 150 Chinese and international 
scholars, NGO workers and officials.
    In addition to working with the Ministry of Civil Affairs, the 
Center also works with the National People' Congress that, besides 
making and amending laws, supervises all elections above the village 
level. In 1999, the Center was invited to observe a township election 
in Chongqing. Recently, a team from the Center has worked together with 
a political reform study group from the Chinese Academy of Social 
Sciences and the National People's Congress participated in the work of 
conducting several township election pilots, reviewing the problems of 
township and county people's Congress deputy elections and offering 
suggestions to the possible revision of China's Election Law and the 
Organic Law of Local Governments, the two paramount laws whose 
amendment will fundamentally change the procedures of all direct and 
indirect elections in China.
    The Center has provided substantial assistance in printing the 
National Procedures on Villager Committee Elections, the waterproof 
copy of the Organic Law on the Villager Committees, the electoral 
procedure posters, and a total of nine research and work experience 
books on rural elections and governance. The Center is supporting the 
maintenance of the most informative website on China's villager self-
government and grassroots democracy and will soon launch another 
Chinese/English website on Chinese elections and governance.
    The Center has been coordinating its work in China with other 
American organizations such as the IRI, the Ford Foundation and the 
NDI. It has also shared its working experience with government agencies 
and NGOs from Canada, Great Britain, Spain and other Western countries. 
It has been in direct communication with the UNDP whose village 
elections related project was completed in December 2001 and with 
European Commission whose ambitious rural governance training program 
begins in August 2002.
    China is a significant Nation whose international responsibility, 
domestic stability and economic prosperity will directly impact the 
Asia-Pacific region and the world. All these things desired by her own 
people and the people of her close and distant neighbors cannot be 
sustained without an open and transparent political system through 
which the government derives its legitimacy, the people hold their 
leaders accountable, and the global community conduct its relationship 
in a reliable manner. No single or group of nations can initiate this 
most important sea change in China. China will have to do it by 
herself. However, the involvement of Western governments and NGO's in 
sowing the seeds of reform, sustaining the change and consolidating the 
gains is indispensable. Imposing Western values on China without 
considering China's unique circumstances is counterproductive. Ignoring 
China altogether in its cautious and sometimes confusing quest for 
greater democratization, choice and accountability is outright 
erroneous. Working outside China is helpful. Providing assistance 
inside China is safer and all the more effective.
                                 ______
                                 

                 Prepared Statement of Elizabeth Dugan

                              july 8, 2002
    IRI in China The International Republican Institute has conducted 
programs to encourage legislative, legal and electoral reform in China 
since 1993. Institute delegations have observed more than 50 local 
elections for rural village committees in China since 1994, and IRI was 
the first international organization to do so. In 1995, IRI began to 
sponsor workshops for election officials to discuss the Ministry of 
Civil Affairs' regulations for conducting elections and new guidelines 
for training materials, emphasizing the importance of secret ballots, 
multi-candidate elections and transparent vote tabulation. The 
Institute has supported these kinds of programs in Fujian, Guangxi, 
Hainan, Hebei, Henan, Shanxi, Sichuan, Jilin, Liaoning and Yunnan 
provinces.
    In 1997, IRI began working directly in several provinces to train 
newly elected village committee leaders, and subsequently assisted 
provincial officials with the drafting of implementing methods and 
regulations for the 1998 NPC law governing village committee elections. 
Additionally, IRI has worked to provide information and support 
training for election monitors in 1996, 2000 and 2002. Since 2000, IRI 
has held regional networking conferences for provincial officials from 
several provinces, and in 2001 IRI began training Chinese election 
officials in effective campaigning techniques.
    IRI now also claims the distinction of being the first 
international organization to observe urban community elections after a 
staff delegation visited the industrial city of Liuzhou, located in the 
Guangxi Zhuang Autonomous Region of China in May 2002. Due to the 
strong commitment of local leaders to the principles of accountability, 
transparency and the rule of law, urban elections in Guangxi are 
considered to be among the most advanced and democratic in China.
                   what are urban elections in china?
    Urban community elections have been occurring on an experimental 
basis in China since 1999. In that year, 12 pilot cities were allowed 
to hold elections for positions on urban residence committees, the 
lowest level of State power in Chinese cities. In some cities, a number 
of residents committees have been combined into what are called ``urban 
community committees'' and elections are held for positions in the 
bodies. The law governing urban elections was first passed in 1989 and 
was patterned on the experimental village committee law of 1987.
    For most of the history of the People's Republic of China, 
residence committee leaders were appointed by the municipal Party 
apparatus, and the primary organizing unit in most large Chinese cities 
was the work unit, or danwei, which provided the cradle-to-grave social 
services known collectively as the ``iron rice bowl.'' Although urban 
residents committees existed, positions on those committees were 
primarily held by elderly, often barely literate women, and functions 
of the committees were limited to menial neighborhood tasks and 
snooping into urban citizens' private lives.
    China's cities have been undergoing massive social and economic 
change in recent years. With more and more state-owned enterprise 
failures and increasing unemployment, work units have become less 
important and less effective in many cities. Simultaneously, the influx 
of migrant workers into urban areas has dramatically altered the urban 
landscape. Crime has increased as have street protests and labor 
unrest. Residents committees as they were formerly conceived and 
structured no longer meet the needs of China's city dwellers.
 what is the chinese government's interest in allowing urban elections?
    In the interest of modernization and social stability (the same 
rationale first used to permit village elections more than 10 years 
ago), the Chinese government decided to permit elections for urban 
residents committees on an experimental basis. It is worth noting that 
in the absence of detailed central government directives on urban 
elections, local officials have a great deal of autonomy in designing 
and implementing them, and there is a lot of variety. Myriad types of 
urban elections are now occurring in approximately 26 urban areas 
across the country. The hope is that younger, more qualified 
individuals will run for positions on the committees, and that 
elections will make these residents committees more accountable to 
urban
citizens.
    One example is Shenyang, capital of Liaoning Province in 
northeastern China's rustbelt, with widespread unemployment and 
increasing labor unrest and crime as well as corruption among the 
political elite. The municipal government there was supposed to pay SOE 
workers a bonus in honor of the 50th anniversary of the Communist 
revolution, but was unable to do so, prompting large street 
demonstrations. In response, the mayor of Shenyang made three trips to 
Beijing in 1999 to petition the Ministry of Civil Affairs to include 
Shenyang on the list of cities allowed to
conduct urban community elections on an experimental basis. Permission 
was eventually given. In Shenyang's Heping District 363 neighborhood 
committees were merged into 144 communities and elections for positions 
on the community committees have been held. Shenyang has a system of 
indirect democracy, in which candidates (one more than the number of 
positions on the committee) are selected by an election committee made 
up of officials from the district government. Not everyone is permitted 
to vote in community elections; housing complexes within the 
communities elect representatives, and those representatives elect the 
members of the community committee. Though it is far from a perfect 
system of direct democracy, it nonetheless gives residents more of a 
voice in their local government than they have ever had in the past.
              how democratic are china's urban elections?
    As is the case with village elections, the degree to which urban 
elections can be considered democratic varies widely by region. In some 
cities, elections for community committees are indirect and the process 
is deeply flawed and far from ``one person, one vote.'' Instead, lists 
of candidates are prepared by an election committee controlled by the 
municipal government, and elected representatives from residents 
committees then vote on those candidates. It's important to keep in 
mind, however, that even the very limited franchise described above 
represents a quantum leap forward from previous periods, when residents 
committee members were chosen exclusively by the municipal government 
and Party branches.
    In other cities, the nomination process is much more open, and 
elections are direct, using secret ballots and generally following the 
procedures guided by the Village Committee Organic Law. Urban elections 
tend to be less democratic and less prevalent in cities where the 
danwei structure is still firmly entrenched. In those cities, it is 
difficult for citizens to see any direct connection between residents 
committees and their own interests; the community committee doesn't 
control any benefits that people value, so they do not value the 
community committee. Elections tend to be more democratic in rustbelt 
cities like Shenyang, where many SOEs have gone under and unemployment 
rates are high. Urban elections also tend to be more developed in 
medium-sized cities, like Liuzhou (Guangxi Autonomous Region) than in 
major metropolises, although the reasons for this are not entirely 
clear.
 village elections and urban elections: what are the implications for 
                       democratization in china?
    It may be obvious that the ruling party in a one-party State isn't 
apt to do things that it doesn't believe are in its own interests. For 
that reason, many have argued that village elections are controlled by 
the Party and little more than window dressing. But the fact remains 
that elections have now been held in most Chinese
villages, and peasants have found themselves empowered to organize, 
criticize
authorities and in some cases even dismiss corrupt or incompetent 
leaders. Local elections and the right to freely nominate candidates 
are becoming increasingly institutionalized, and Chinese villagers are 
more and more familiar with their rights under the law and are willing 
to defend those rights by protesting, submitting petitions and going to 
court. Since their inception, rural elections have often had unintended 
consequences: As Chinese peasants have become accustomed to choosing 
their own leaders, they have often become less susceptible to party 
control and more willing to defend their rights to autonomy and self-
governance. It is likely that urban elections will have some of the 
same effects as they mature and spread. In rural China, the Party's 
attempts to reassert control by installing Party chiefs as village 
committee heads and Party branch and township government attempts to 
interfere and encroach upon village government affairs have been 
resisted by villagers, although not always successfully.
    Beyond just minimizing the importance of village elections in 
themselves, for years critics have claimed that their implications for 
larger political change in China were negligible. But now urban 
communities are holding elections using laws that are based on and 
almost identical to the Village Committee Organic Law. Direct popular 
elections with such procedures as open nominations, secret ballots, 
more candidates than posts, and open vote tallying now exist not only 
in rural villages, but in urban areas as well, and this is a 
significant step forward.
    Like village committees, urban residents committees are not 
officially part of the State structure and thus they lack formal 
coercive power. However, they do provide many services that are 
important to residents. The social and political surveillance functions 
of the committees have greatly declined in importance as the State has 
retreated from micro-managing private life. Functions of the 
communities now
include elderly care, job retraining, day care for children, 
sanitation, dispute resolution, literacy classes, landscaping and 
environmental improvements, and public safety and security, and may 
also include managing local neighborhood enterprises.
    Some residents and community committees also lobby the district or 
municipal government on behalf of residents. For example, in one 
community the committee lobbied the municipal government to force the 
police to shut down a noisy karaoke bar in the area; in others, 
residents committees have compelled property management companies to 
undertake repairs, or pressured the district or municipal governments 
for street lighting and pollution abatement. Additionally, the 
committees offer legal education and services, discussing new laws 
passed down from higher levels, and also provide advice about citizens' 
rights under the law and how to file a lawsuit, as well as daily life 
services such as beauty parlors, home repair and takeout food. Some 
committees have telephone hotlines so residents can call in and report 
problems, and some conduct surveys to see how satisfied residents are 
with the performance of the committee.
          why is iri is interested in chinese urban elections?
    IRI's commitment to supporting both village and urban elections is 
grounded in the same rationale: These elections provide a democratic 
training ground and hold local leaders accountable to their 
constituents. It is also our belief that elected leaders will use their 
popular mandate to enact policies that will be beneficial to the 
citizens who elected them.
    It is IRI's intent and plan near-term to provide training in the 
Guangxi Autonomous Region to those responsible for administering urban 
elections in the province, enabling them to have a comprehensive 
understanding of the mechanisms and the rationale of transparent 
elections. We are also prepared to conduct programs for newly elected 
residents committee chairmen, with an eye toward providing them with 
tools and techniques to perform their duties in a responsive and 
responsible way.
    In our longstanding work with elections in China, IRI has been most 
deeply impressed with the willingness and eagerness of local and 
provincial officials to root systems of direct elections. Guangxi was 
no exception. There, as elsewhere, we have cultivated relationships 
with officials who are dedicated to reform. We concede that China 
doesn't have a strong historical tradition of democracy, and a 
democratic political culture has to be built from scratch. But 
organizations like IRI can--and will--help with that task.
    As the Chinese are trying to institutionalize the rule of law for 
their own reasons, we see a close relationship between the rule of law 
and the development of a Chinese public that understands their own 
rights and responsibilities as citizens of a modern state, including 
participating in free and fair elections, the significance of self-
governance, transparency and accountability and the mechanisms to 
enforce compliance on the agents of the state. All of these things are 
crucial building blocks for democracy at higher levels. Democracy may 
not come to China as quickly as we would like, but when it does, an 
important part of the pressure for change will come from the grassroots 
level.

                                   - 

</pre></body></html>
